<html>
<title> - PEACE CORPS, THE NEXT 50 YEARS</title>
<body><pre>[Senate Hearing 112-202]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-202
 
                     PEACE CORPS, THE NEXT 50 YEARS

=======================================================================



                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE

                  CORPS, AND GLOBAL NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 6, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations

      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
72-395                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



   
                   COMMITTEE ON FOREIGN RELATIONS          
   
                JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

          SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE          
             CORPS, AND GLOBAL NARCOTICS AFFAIRS          

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            MARCO RUBIO, Florida
JIM WEBB, Virginia                   MIKE LEE, Utah
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia
                                     JOHN BARRASSO, Wyoming

                             (ii)          




                            C O N T E N T S

                              ----------                              
                                                                   Page

Buller, Kathy A., Peace Corps Inspector General, Office of the 
  Inspector General, Washington, DC..............................    38
    Prepared statement...........................................    39
Dodd, Hon. Christopher J., D-CT, former Member, U.S. Senate, 
  Returned Peace Corps Volunteer, Washington, DC.................    10
    Prepared statement...........................................    16
Isakson, Hon. Johnny, U.S. Senator from Georgia, statement.......     3
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Odongo, Elizabeth, Training and Outreach Director, D.C. Coalition 
  Against Domestic Violence, Washington, DC......................    53
    Prepared statement...........................................    54
Quigley, Kevin F.F., Ph.D., President, National Peace Corps 
  Association, Washington, DC....................................    47
    Prepared statement...........................................    49
Rubio, Hon. Marco, U.S. Senator from Florida, opening statement..    20
Williams, Hon. Aaron, Director, Peace Corps, Washington, DC......    26
    Prepared statement...........................................    28
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    58
    Responses to questions submitted for the record by Senator 
      Jeanne Shaheen.............................................    62
Wofford, Hon. Harris, D-PA, former Member, U.S. Senate, 
  Washington, DC.................................................     4
    Prepared statement...........................................     7

                                 (iii)


                     PEACE CORPS: THE NEXT 50 YEARS

                              ----------                              


                       THURSDAY, OCTOBER 6, 2011

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
         Peace Corps, and Global Narcotics Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the subcommittee) presiding.
    Present: Senators Menendez, Shaheen, Rubio, and Isakson.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. The hearing will come to order. Our 
apologies to our former colleagues, who I know understand the 
process of the Senate and votes and that we have no control 
over when that happens. So thank you for bearing with us.
    This year, as we celebrate the 50th anniversary of the 
Peace Corps, signed into law on September 22, 1961, we 
celebrate the success of the Peace Corps' first 50 years. And 
today, we convene this hearing to evaluate what needs to be 
done to ensure its continued success over the next 50 years.
    Clearly, it is a new world since President Kennedy created 
the Peace Corps, a vastly different place than it was when he 
signed the concept into law. In 1961, we were in the midst of 
the cold war. The Berlin Wall had gone up on August 13 of that 
year, only a few weeks earlier. The Soviet Union dominated our 
foreign policy agenda. Kabul and Baghdad were not even blips on 
our radar screen, let alone a click away on a computer screen 
on Google Earth.
    Now, in the post-9/11 digital world, the task and mission 
of the Peace Corps may not have changed, but the world and 
circumstances into which we send our Volunteers has changed 
considerably.
    Today, I hope to hear from our panelists on what those 
changes are and how they have affected the Peace Corps' overall 
mission, if at all. And if so, what we can do to mitigate any 
adverse impact on the effectiveness of the program.
    I hope to hear from our experts about how we can enhance 
the mission of the Peace Corps and make it even more effective 
in living up to the idealism, innovation, and generosity of 
more than 200,000 Americans who have volunteered in over 139 
nations in the last half century.
    When John F. Kennedy created the Peace Corps, he saw it as 
more than a quixotic agency of young people on a mission of 
peace. He saw it as a fulfillment, a fundamental fulfillment of 
our values as a nation. He sought to encourage a better 
understanding between Americans from every walk of life and the 
people and cultures of other nations.
    I am sure my good friends, the distinguished Senators, 
former Senators, sit before us, especially Chris Dodd, one of 
our panelists today, a Peace Corps Volunteer himself, remembers 
what our late friend and colleague Ted Kennedy always used to 
say. ``It is always better to send in the Peace Corps than the 
Marine Corps.''
    Sending in the Marines, albeit necessary on occasion, is 
never a welcomed option. But sending in the Peace Corps is 
always a welcomed opportunity for us to extend the hand of 
freedom and democracy around the world and to show the world 
the power of our values rather than the value of our power.
    In the last 50 years, our Volunteers have enriched the 
lives of thousands of people in thousands of villages around 
the world, and by so doing, they have enriched their own lives. 
And when they returned home, they have enriched our communities 
and our Nation. We are a better place because of their 
commitment to a program that has been one of our great 
successes. Today's panelists will help us determine how we can 
build on that success and make the Peace Corps better.
    It is important to note that this hearing is to assess, not 
to criticize--to evaluate, not to castigate. It is my hope that 
this hearing will be a constructive discussion that moves us 
closer to the goal of making the next 50 years of the Peace 
Corps even better than the first 50.
    One hundred years of progress, reaching out to those around 
the world, extending American values and a helping hand is our 
goal. And I am a firm believer that one must be open and honest 
in acknowledging the progress and the challenges of the past 
before one can plan for the future. Today is the beginning of 
that process.
    I have invited to testify before the committee witnesses 
who love the Peace Corps, yet understand its challenges and 
have a genuine interest in strengthening the organization. We 
will hear testimony from Aaron Williams, the director of the 
Peace Corps; my good friend and former colleague, Senator Chris 
Dodd, who was the chair of this subcommittee and now chairman 
and CEO of the Motion Picture Association of America. And I am 
ready to play a part any time you want me to, Chris. 
[Laughter.]
    And the former distinguished Senator from Pennsylvania, 
Harris Wofford, who is former legal assistant to President 
Kennedy and the associate director of the Peace Corps as well.
    Kathy Buller, who is the inspector general of the Peace 
Corps; Kevin Quigley, the president of the National Peace Corps 
Association; Liz Odongo, the training and outreach director of 
the D.C. Coalition Against Domestic Violence and a returned 
Peace Corps Volunteer.
    I know Senator Rubio is on his way. He got called, in 
addition to the vote, to a meeting of the Commerce Committee 
that is an important quick markup off the floor. He intends to 
be here and has a statement to make.
    But in the interim, I know that Senator Isakson is very 
interested in the Peace Corps, and I would be happy to 
acknowledge him at this time.

               STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you very much, Chairman 
Menendez, and welcome to my dear friend Chris Dodd. And Senator 
Wofford, we are delighted to have you here today.
    And I apologize that I am going to have to leave about as 
quick as I make my remarks, but I have the same challenges that 
Marco Rubio does.
    You know, in my capacity the last 5 years as ranking member 
or chairman, depending on who was in power, of the Africa 
Subcommittee of Foreign Relations, I have traveled that 
continent. And in that continent, I have met with Peace Corps 
Volunteers all over Africa and, most recently, met with them in 
Beijing, China, where we now have over 200 in China in the 
Peace Corps. And they are remarkable emissaries of the United 
States of America and the best ambassadors you could possibly 
have.
    I want to particularly pay tribute to Aaron Williams and 
what he has done since he has taken over the realm of the Peace 
Corps. As Chris Dodd will remember, he helped me last year try 
and pass in the Senate the Kate Puzey Peace Corps Volunteer 
Protection Act, and we came close but fell a little short. I am 
pleased to say that we passed it 2 weeks ago in the United 
States Senate. It will be passed in the House of 
Representatives, I think, next week and will become law very 
soon.
    It is a tribute to a young lady who was a Peace Corps 
Volunteer from my State who was brutally murdered in Benin, and 
I think, as a victim of that, I have worked hard--and I 
appreciate the help Harris has given us in this regard, by the 
way--worked hard to see to it the Peace Corps had systems in 
place so that our Volunteers had the best of protections equal 
to that of whistleblowers in the Government.
    And Aaron Williams has been instrumental in seeing to it 
that that Peace Corps Protection Act and those policies are 
basically almost totally already implemented within the Peace 
Corps. And I want to publicly thank him on behalf of the Puzey 
family and all the Peace Corps Volunteers who have served and 
who do serve.
    On this 50th anniversary of the Peace Corps, I think we 
could do nothing better than to enhance and improve our 
protection of Peace Corps Volunteers, and I thank all those, 
Senator Dodd and Aaron Williams, who have helped me along the 
way. And I appreciate your taking your time to be here today.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Isakson.
    So I believe both of our distinguished colleagues don't 
really need an introduction, but I will give you one anyhow.
    Senator Harris Wofford was a special assistant to President 
Kennedy for civil rights, instrumental in the formation of the 
Peace Corps, served as its special representative to Africa, 
director of operations in Ethiopia, associate director before 
being elected to the United States Senate from the State of 
Pennsylvania.
    He is a noted activist for volunteerism and national 
service. And after his time in the Senate, Senator Wofford 
served as the chief executive officer of the Cooperation for 
National and Community Service and continues to serve on the 
boards of several service organizations.
    Senator Chris Dodd answered President Kennedy's call and 
joined the Peace Corps after graduating college. He served in 
the Dominican Republic from 1966 to 1968. He was Connecticut's 
longest serving Member of Congress, having served 6 years in 
the House of Representatives and 30 years in the U.S. Senate 
and, as I said, a chair of this subcommittee. Introduced the 
Peace Corps Empowerment Act in 2007, the Peace Corps 
Improvement and Expansion Act in 2009, which combined a reform 
and growth strategy for the Peace Corps.
    So welcome back again. And Senator Wofford, please start us 
off. Your full statement will be included in the record, but we 
ask that you summarize it in 5 minutes.

  STATEMENT OF HON. HARRIS WOFFORD, D-PA, FORMER MEMBER, U.S. 
                     SENATE, WASHINGTON, DC

    Senator Wofford. Senator Menendez, thank you for your 
leadership and, Senator Isakson, for yours.
    I have heard you tell reports of coming back and having met 
Peace Corps Volunteers on several occasions, and I have 
followed suit in recent years with my grandsons. Whenever we 
get a 6-week trip around the world that they earn when they 
turn 12, we see Peace Corps Volunteers, and it is one way to 
keep up.
    And thank you for inviting me to talk about the Peace Corps 
and particularly to give a historical perspective on the Peace 
Corps and the vision behind its establishment.
    Excuse me. Reading glasses are worthwhile.
    For many of us, the celebration of the Peace Corps' 50th 
anniversary last October 14 at the University of Michigan began 
there, when hundreds of former Peace Corps Volunteers, staff, 
students, gathered out at midnight outside the student union. 
We were there on a cold, drizzling night to mark the time when 
that Presidential candidate John Kennedy struck the spark that 
led to the Peace Corps' establishment 4\1/2\ months later.
    Kennedy was late in arriving, about 2 a.m., but found 
thousands there on that cold night and decided to make 
impromptu remarks. Fifty years later, we heard and saw on a big 
screen Kennedy's
3-minute talk. He asked, ``How many of you are going to be 
doctors, are willing to spend your days in Ghana?'' He asked 
how many technicians and engineers were willing to serve 1 or 2 
years around the world and if others were willing to contribute 
part of their lives.
    He thought Americans would be willing, but the effort must 
be far greater than we have ever made in the past, he said. 
There was loud applause that night, but almost no press 
treatment. A small group of students quickly formed an 
organization, Michigan Students Committed to World 
Responsibility, and drafted and began circulating a pledge 
saying they were willing.
    Back at Kennedy campaign headquarters, Sargent Shriver and 
I knew nothing about all of this until the mother of one of the 
students called to say that nearly 1,000 students had signed 
the pledge, and they wanted help in arranging a time when they 
could present it to Kennedy. When Kennedy was told about this 
remarkable response, before he even saw the pledges, he said, 
``I want to propose an overseas Volunteer Program in one of my 
last major campaign speeches.''
    At the Cow Palace in San Francisco in the last days of the 
campaign, he did. He promised to create a Peace Corps to 
widespread press coverage and a subsequent wave of enthusiasm 
on college campuses.
    On January 20, 1961, while watching the inaugural parade, 
Kennedy asked Sargent Shriver to study and recommend how to 
create such a Peace Corps. As the campaign deputy to Shriver, I 
was lucky that next day to be asked to help him gather and to 
participate in the task force that for 5 weeks, day and night, 
prepared the plan for launching the Peace Corps.
    Volunteers would serve for 2 years, plus training. They 
would be of all adult ages, but the signs were that most would 
be recent college graduates. Within 4 days of receiving 
Shriver's report, the President on March 1, by Executive order, 
established the Peace Corps and simultaneously sent a message 
to Congress asking for legislation to authorize and appropriate 
funds to support it.
    Meanwhile, with discretionary funds in the State Department 
budget, the President enabled Shriver to enlist a staff, 
recruit and select Volunteers, and send the first Volunteers 
forth, landing in Ghana before the end of August. There were 
several hundred Volunteers in the first countries by the time 
Congress passed the Peace Corps Act September 22.
    Now, can you imagine all that happening--first, by 
Executive order and then, in a few months, congressional 
action--with large bipartisan support? In the next 2 years, 
while serving as special assistant to President Kennedy, I was 
on call to Shriver, including the first 3-week trip around the 
world to heads of state to see if they wanted Peace Corps 
Volunteers. They did.
    In that short history, note the crucial role of students in 
the Peace Corps' creation, beginning with a small group who 
were determined to act. Sargent Shriver repeatedly said if 
those Michigan students had not taken that initiative and got 
nearly 1,000 students to sign that pledge saying they were 
willing to serve, there is no reason to think that in the 
pressures of the transition and the crises that followed, the 
Peace Corps idea would have emerged as a priority.
    Sargent Shriver's name became a verb. To ``shriverize'' 
meant to be bolder and faster and to make it big. Senator Jay 
Rockefeller the other day, who was on the first organizing 
staff, and I think the great champion of the Peace Corps in the 
Senate in my time--Chris Dodd, was there--recently said that 
Sargent Shriver was the greatest one, bar none, that he ever 
worked with. He was also the most fun.
    He believed that for the Peace Corps to be small and to 
develop slowly, it would be seen merely as a symbolic 
Government public relations effort. When we came out of the 
State Department one day, and an expert there had said it would 
take 2 years or more maybe before a project that started could 
actually land Volunteers on the ground in the other country, he 
said, ``We are going to get 600 Volunteers in six countries in 
6 months.'' I think we did. He aimed to make the Peace Corps 
the most antibureaucratic bureaucracy in Government history, 
and I think it was.
    In August 1962, I briefed the President before he went out 
to the White House lawn to send off some 600 Volunteers, 
including 300 going to teach in Ethiopia, where I was soon to 
become the country director and Peace Corps' special 
representative to Africa for the next 2 years with my family. 
Walking back to the Oval Office, Kennedy conveyed his delight 
that the Peace Corps was proving itself. ``This will be really 
serious,'' he said, ``when it is 100,000 Volunteers going 
overseas each year, and then there will be 1 million Americans 
who have had firsthand experience in Asia, Africa,'' as he 
would say, ``and Latin America. Then, for the first time, we 
will have a large constituency for a good foreign policy.''
    The Peace Corps now numbers a little more than 8,000 
Volunteers a year, and if the President's budget is cut back 
substantially, that number will decrease and probably no new 
countries will have their wish for Peace Corps Volunteers 
fulfilled. In 50 years, only 200,000 have served, not the 
several million Kennedy would have hoped for by now.
    When Shriver and I left the Peace Corps in late 1966, there 
were 16,000 Volunteers overseas or in training, and the plan 
was soon to reach 250,000. By then, President Johnson had 
called the Peace Corps a worldwide training for great citizens. 
Vice President Humphrey, who chaired the Peace Corps Advisory 
Council, said that by 1970, we hope there would be about 50,000 
back here in the United States.
    Now fast forward to 2 weeks ago when some 5,000 returned 
Volunteers and staff came to Washington for 4 days of 
celebrations, conferences, and country reunions. On Sunday, in 
a march of flags, we walked down from John and Robert Kennedy's 
graves at Arlington Cemetery, across the Memorial Bridge to the 
Lincoln Memorial. The sun came out, and for the long, colorful 
line of Volunteers carrying the flags of the 139 countries in 
which they had served, we were proud; proud of what 200,000 
Volunteers had accomplished.
    But many of us also remembered the high hopes and potential 
that was lost by the drain of resources for the Vietnam war. By 
the early 1970s, the Corps was down to just a little over 5,000 
a year. It is painful to think of that lost opportunity for 
Americans to have made a far larger contribution to mutual 
understanding and the world's economic and educational 
development and to peace.
    You, on this committee, face very difficult budget choices. 
The urgent is often the enemy of the important. But in this 
case, the important and the urgent come together. Many of us 
from the training school of the Peace Corps hope that the 
President and Congress will find the way to get on the track to 
double the Peace Corps.
    After 9/11, President George Bush asked for that. And in 
his Presidential campaign, Barack Obama repeatedly called for 
the doubling of the Peace Corps and, in a message to the 
National Peace Corps Association, called for the renewal of 
President Kennedy's hope for 100,000 a year.
    The Peace Corps and other forms of international service, 
Mr. Chairman, are as important today as they were in 1960, when 
Kennedy said that the effort must be far greater than we have 
ever made. It is my hope that such effort may yet be possible 
when, once again, idea and fate meet in a creative hour.
    In closing, I want to call your attention to two recent 
documents that are pertinent to the issues in this hearing. The 
National Peace Corps Association, whose president, Kevin 
Quigley, is a witness today, and Civic Enterprises, headed by 
John Bridgeland, President George W. Bush's assistant for 
service and his White House USA Freedom Corps director, they 
have just released a report, ``A Call To Peace: Perspectives of 
Volunteers on the Peace Corps at 50.''
    It includes a comprehensive survey of the representative 
sample of Volunteers from all five decades conducted by Peter 
D. Hart Research Associates. The survey asked the Volunteers to 
answer some of the questions you are asking about what the 
Peace Corps does well, what its challenges were and are, and 
what is the vision for the future? A good sign for the future 
is that the survey found that 98 percent said they would 
recommend the Peace Corps to their child, grandchild, or close 
family member.
    Kevin Quigley will be putting that report in the hearing 
record and discussing it in his testimony. As two of the 
coauthors, we think you will find it of value in assessing the 
Corps' strengths and weaknesses and pointing the way forward to 
a stronger, better, and much larger Peace Corps. We will be 
ready to talk with you or your staff after you or they have a 
chance to read this report.
    I want to put in the record now, and last, a different kind 
of report that I find of great value that has just been 
published by the Gerald R. Ford School of Public Policy at the 
University of Michigan, sponsored by the Brookings Institution 
Initiative on International Volunteering and Service and the 
National Peace Corps Association, with support from the 
Building Bridges Coalition, entitled ``Peace Corps: Charting 
the Future of International Service.''

    [Editor's note.--The report referred to was too voluminous 
to include in the printed hearing. It will be maintained in the 
permanent record of the committee and can also be accessed by 
the following link: http://www.fordschool.umich.edu/news/
peacecorps.]

    Senator Wofford. It gives well-edited excerpts from talks 
during the university's national symposium on the future of 
international service that we were at last October. They 
entitled my keynote talk there, ``Time To Be Inventive Again.''
    With those as watch words for the next 50 years, I will 
stop. For the Peace Corps to be ready for new opportunities 
when idea and fate once again meet, we will need to be more 
inventive if we are going to do our duty.
    Thank you.
    [The prepared statement of Senator Wofford follows:]

               Prepared Statement of Hon. Harris Wofford

    Chairman Menendez and Ranking Member Rubio, thank you for inviting 
me here today to join Senator Dodd, who was a great champion of the 
Peace Corps in the Senate, and other key colleagues--the excellent 
director of the Peace Corps and the president of the National Peace 
Corps Association. You asked me to give a historical perspective on the 
Peace Corps--the vision behind its establishment, my assessment of the 
Corps' strengths and weaknesses, and the importance of international 
volunteer service.
    For many of us, the celebration of the Peace Corps' 50th 
anniversary began last October 14 at the University of Michigan when 
hundreds of current University and former Peace Corps Volunteers and 
staff gathered after midnight outside the student union. We were there 
on a cold, drizzling night to mark the time and place that Presidential 
candidate John Kennedy struck the spark that led to the Peace Corps' 
establishment 4\1/2\ months later. Kennedy was late in arriving, nearly 
2 a.m., but found thousands waiting on a cold fall night and decided to 
make some impromptu remarks.
    Fifty years later, we heard and saw on a big screen Kennedy's 3-
minute talk. He asked, ``How many of you who are going to be doctors 
are willing to spend your days in Ghana?'' He asked how many 
technicians and engineers were willing to serve around the world--how 
many young people there are willing to serve ``1 or 2 years . . . to 
contribute part of your life.'' He said he thought ``Americans are 
willing . . . but the effort must be far greater than we have ever made 
in the past.'' He ended with a challenge: ``This university is not 
maintained . . . merely to help its graduates have an economic 
advantage in the life struggle. There is certainly a greater purpose.''
    There was loud applause and cheers that night in 1960, but almost 
no mention of Kennedy's call to serve in the news media. A small group 
of students quickly formed an organization, ``Michigan Students 
Committed to World Responsibility,'' and drafted and began circulating 
a pledge saying they were willing ``to apply their knowledge through 
direct participation in the underdeveloped communities of the world.''
    Back at Kennedy campaign headquarter Sargent Shriver and I knew 
nothing about all this until the mother of one of the students, Mildred 
Jeffrey, who was a leader in our campaign civil rights section, called 
to say nearly a thousand students had signed the pledge and they wanted 
help in arranging time when they could present it to Kennedy. According 
to Ted Sorensen, it was when Kennedy was told about this response, 
before he even saw the pledges, that he decided to propose an overseas 
volunteer program in one of his last major campaign talks. At the Cow 
Palace in San Francisco in the last days of the campaign, to widespread 
press coverage and a subsequent wave of enthusiasm on college campuses, 
he described and promised if elected to create a Peace Corps.
    On January 20, 1961, according to what Sargent Shriver told me, 
while they were watching the Inaugural parade, Kennedy asked Sargent 
Shriver to study and recommend how to create such a Peace Corps. As a 
campaign deputy to Shriver, I was lucky the next day to be asked to 
help him gather and participate in the task force that for 5 weeks, day 
and night, prepared the plan for launching the Peace Corps. The three 
goals were set--to help other countries meet their needs for 
development, to help people in those countries better understand 
America, and for Americans to better understand other people. 
Volunteers would serve for 2 years, plus training. They would be of all 
adult ages, but the signs were that most would be recent college 
graduates and both Shriver and Kennedy wanted to move fast and be able 
to enlist some of the best graduates of the 1961 year, who in large 
numbers were writing the White House to ask how they could apply.
    Within 4 days of receiving the Shriver's report, the President, on 
March 1, by Executive order, established the Peace Corps, and 
simultaneously sent a message to Congress asking for legislation to 
authorize and appropriate funds to support it. Meanwhile with 
discretionary funds in the State Department budget, the President 
enabled Shriver to enlist a staff, recruit and select Volunteers, and 
send the first Volunteers forth, landing in Ghana before the end of 
August. There were several hundred Volunteers in the first countries or 
in training for other countries by the time Congress passed the Peace 
Corps Act on September 22.
    Can you imagine all that happening today, first by Executive order 
and in a few months congressional action with large bipartisan support?
    In the next 2 years, while serving as Special Assistant to 
President Kennedy I was on call to help Shriver, including accompanying 
him on his first 3-week trip, around the world trip, to meet heads of 
state in Africa and Asia, to see if they wanted Peace Corps Volunteers. 
They did.
    In the first country, President Kwame Nkrumah of newly independent 
Ghana invited the Peace Corps to help meet Ghana's urgent need for 
teachers. You might be interested to know that Nkrumah then asked if 
American schools would welcome some graduates of the University of 
Ghana to come and teach African history in our schools. Shriver 
enthusiastically said ``Yes,'' and as the outgoing president of the 
School Board of Chicago assured them a warm welcome in that city's 
schools.
    Nkrumah was gone and Lyndon Johnson was President before the idea 
of reciprocity was tried in a Peace Corps initiated small-scale pilot 
program called Volunteers to America. It continued with great promise 
until negative opposition in Congress to the idea of foreigners coming 
to teach and serve in America and budget pressures of the Vietnam war 
caused cutbacks in President Johnson's ambitious international 
education programs. I would put some substantial form of reciprocal 
international service high on the list of unfinished business for the 
Peace Corps or for other appropriate channels to supplement traditional 
academic study abroad for Americans and here for foreign students in 
international exchange with the powerful education in action of 
service.
    In that short history note the crucial role of students in the 
Corps' creation, beginning with that little group of Michigan students 
who were determined to act. Sargent Shriver repeatedly wrote and said 
that if those Michigan students had not taken the initiative and got 
nearly a thousand students to sign the pledge saying they were willing 
to serve there is no reason to think that in the pressures of the 
transition and the crises that followed for the new administration the 
Peace Corps idea would have emerged as a priority.
    But Shriver's own role in making the Peace Corps a success cannot 
be overemphasized. For those who worked with him in the 1960s his name 
became a verb: To ``Shriverize'' meant to be bolder and faster and to 
make it big. Senator Jay Rockefeller, who was on the first organizing 
staff, recently said at a 50th anniversary event that Shriver was the 
greatest one, bar none, he ever worked with. I also think he was the 
most inventive and the most fun.
    Shriver believed that if the Peace Corps were to be small and one 
that developed slowly it would be seen merely as a symbolic public 
relations effort. When a professional aid expert in the State 
Department advised that it would take 2 years or maybe more to get an 
overseas project actually operating in a country, Shriver went out 
telling us we were going to get 600 Volunteers in six countries in 6 
months--and I think we did. He aimed to make the Peace Corps the most 
antibureaucratic bureaucracy in government history. and I think it 
probably was. I also like to think it can still be that kind of pace-
setting agency.
    Kennedy liked that spirit, and kept asking for speed. In August 
1962 I briefed the President before he went out to the White House lawn 
to send off some 600 Volunteers, including 300 going to teach in 
Ethiopia (where I was soon to become the country director and the Peace 
Corps' special representative to Africa for the next 2 years). Walking 
back to the Oval Office, Kennedy conveyed his delight that the Peace 
Corps was proving itself and said, ``This will be really serious when 
it's 100,000 Volunteers going overseas each year and then there will be 
a million Americans who have had firsthand experience in Asia, Africa, 
and Latin America. Then for the first time we'll have a large 
constituency for a good foreign policy.''
    The Peace Corps is now sending a little more than 8,000 Volunteers 
a year, and if the President's budget request is cut back 
substantially, that number will decrease. In 50 years only 200,000 have 
served, not the several million Kennedy would have hoped for by now. 
When Shriver and I left the Peace Corps in late 1966 there were 16,000 
Volunteers overseas or in training, and the plan was soon to reach 
25,000.
    In 1965, at President Johnson's request, Vice President Humphrey 
and the Peace Corps Advisory Council, which he chaired, convened a 3-
day conference--``Citizens in a Time of Change''--that drew to 
Washington 1,000 of the first 3,000 Returned Volunteers. For 3 days, 
with more than a hundred leaders of the major sectors of our society, 
they discussed the future of America and their role in it, including 
what they could do to bring their new understanding of the world home 
to this country. The President called the Peace Corps ``a worldwide 
training school for Great Citizens.'' Vice President Humphrey told 
them: ``By 1970 we hope there will be about 50,000 back here in the 
United States.''
    Fast forward to two weeks ago when some 5,000 Returned Volunteers 
and staff came to Washington for 4 days of celebrations, conferences, 
and country reunions. On Sunday we marched down from John and Robert 
Kennedy's graves at Arlington Cemetery, across Memorial Bridge to the 
Lincoln memorial. The sun came out for the long colorful line of 
marchers carrying the flags of the 139 countries in which they had 
served. We were proud of what 200,000 Volunteers had accomplished but 
many of us also remembered the high hopes and the potential that was 
lost by the drain of resources for the Vietnam war. By the early 1970s 
the Corps was down to just a little over 5,000 a year. It is painful to 
think of that lost opportunity for Americans to make a far larger 
contribution to mutual understanding and economic and educational 
development--and to peace.
    You on this committee face very difficult urgent budget choices. 
The urgent is often the enemy of the important, but in this case the 
important and the urgent come together. Most of us from the ``training 
school'' of the Peace Corps hope that the Congress and the President 
will find the way to get on the track to double the Peace Corps. After 
9/11 President George Bush asked for that. In his Presidential 
campaign, Barack Obama repeatedly called for that doubling of the Corps 
and in a message to the National Peace Corps Association called for the 
renewal of President Kennedy's hope for 100,000 a year.
    The Peace Corps and other forms of international service are as 
important today as they were in 1960 when Kennedy said the ``effort 
must be far greater than we have ever made.'' I hope that such effort 
may yet be possible, and that once again idea and fate will meet in a 
creative hour.
    In closing, I call to your attention two recent publications that 
are pertinent to the issues in this hearing. The National Peace Corps 
Association, whose president, Kevin Quigley, is testifying today, and 
Civic Enterprises, headed by John Bridgeland, President George W. 
Bush's assistant for citizen service and the White House USA Freedom 
Corps director, have just released a report, ``A Call to Peace: 
Perspectives of Volunteers on the Peace Corps at 50.'' It includes a 
comprehensive survey of a representative sample of Volunteers from all 
five decades conducted by Peter D. Hart Research Associates. The survey 
asked the Volunteers to answer some of the questions you are asking 
about what the Peace Corps does well, what its challenges were and are, 
and what is the vision for the future.
    A good sign is that the survey found that 98 percent said they 
would recommend the Peace Corps to their child, grandchild, or close 
family member. Kevin Quigley will be putting that report in the hearing 
record and discussing it with you. As two of the coauthors, we hope you 
will find it of value. We will be happy to talk with you or your staff 
after you or they have a chance to read it.
     I want to put in the record another report dealing with your 
questions today, ``PEACE CORPS: Charting the Future of International 
Service,'' by the Gerald R. Ford School of Public Policy at the 
University of Michigan. It contains the talks given at their symposium 
on last October, sponsored by the Brookings Institution Initiative on 
International Volunteering and Service and the National Peace Corps 
Association, with support from the Building Bridges Coalition. Entitled 
``PEACE CORPS: Charting the Future of International Service.'' You will 
find further thoughts by Kevin Quigley and Peace Corps director Aaron 
Williams.
    The School entitled my talk: ``Time to Be Inventive Again.'' Those 
are good watch words for the next 50 years. For the Peace Corp to be 
ready for new opportunities when idea and fate meet again we need to be 
more inventive if we are going to do our duty.

    Senator Menendez. Thank you, Senator Wofford.
    Senator Rubio has joined us. He is the ranking member of 
the committee and graciously agreed to delay his opening 
statement so that we may hear from Senator Dodd.
    Senator Dodd.

  STATEMENT OF HON. CHRISTOPHER J. DODD, D-CT, FORMER MEMBER, 
   U.S. SENATE, RETURNED PEACE CORP VOLUNTEER, WASHINGTON, DC

    Senator Dodd. Well, thank you very much, Mr. Chairman.
    And Senator Rubio, it is a pleasure to meet you, see you. I 
think I went by, in fact, on your swearing-in day. I missed you 
and your celebratory gathering in the Senate office building. 
So nice to see you this morning, and welcome.
    This is my maiden voyage back to the Senate, and it has not 
been a year yet, but my first time back in the buildings. And 
hearing these bells going off, I am having a reaction here to 
myself. [Laughter.]
    I feel like I should be jumping up and running over for a 
quorum call or casting a vote.
    And so, I thank you for inviting me, Senator Menendez, to 
be a part of this hearing today, to be with Harris Wofford, who 
I have admired immensely for so many years, have worked with 
him when I sat in the chair, as you point out, of chairing this 
subcommittee or being the ranking member for 30 years, from my 
first days when I sat down at the very end of this table and 
took over as a member of the committee then, but moving up in 
the seniority and being deeply involved in this issue of the 
Western Hemisphere.
    So I am delighted to be here in your presence and Senator 
Rubio's, Johnny Isakson, who I have a great regard for. I 
worked very closely with during my service here. We did a lot 
of things together. And his leadership on legislation affecting 
the Peace Corps as well.
    So I will take a few minutes and share some thoughts with 
you. Having been involved in this organization 45 years ago 
when, as a 22-year-old graduating from college, applied to the 
Peace Corps. I didn't know you could be country specific in 
applying, and the application asked me where I would like to 
serve. And I remember filling it out, and I said, ``I would 
like to serve anywhere in Africa, Asia, or Latin America.'' 
Pretty much the world. I didn't know you could--and they sent 
me to the Dominican Republic, which was a wonderful, wonderful 
experience and life-altering. Sort of an epiphany in many ways 
in my life. To this day, I maintain strong relations with 
people that I met and worked with during those days.
    In fact, I took my two very young children with me last 
winter back to my village in Benito Moncion in the Dominican 
Republic. And we spent 2 days with friends that I had made 45 
years ago that maintain those relationships. So the lasting 
effects of the Peace Corps go far beyond your service years, 
but rather continue.
    Anyway, I am glad to be with you today to share some 
thoughts about this next 50 years, and it is a timely topic, 
given the anniversary of this remarkable organization and given 
how much the world has changed since March 1961, when, as 
Harris has pointed out, President Kennedy signed the Executive 
order establishing the Peace Corps. It is also an appropriate, 
I think, time to take stock, as you pointed out in your opening 
comments, Mr. Chairman, of the challenges facing the 
organization so it will remain relevant and productive for the 
next 50 years as well.
    So let me say at the outset that I think Aaron Williams is 
doing a terrific job. We served together as Peace Corps 
Volunteers in the Dominican Republic. We overlapped. He arrived 
a year after I was already in the country. We didn't serve 
together in the same area, but I have known him for a long time 
and have a great deal of respect for him, and I think he has 
handled the job tremendously well.
    And challenges that have obviously been raised, he and his 
staff are really doing a fine, fine job in addressing those 
issues and responding appropriately and quickly to the 
questions that have been raised, legitimate questions raised 
about the safety and security of Volunteers and the job that 
they are doing. But I wanted to begin my comments by publicly 
expressing my support for him and the staff and the job that 
they are doing.
    I may be slightly biased about Aaron, as I said, because we 
served together in the Dominican Republic. And like many other 
Peace Corps Volunteers in 1966, I was fresh out of college and 
learned on the job with the support of some wonderful families 
in that small village in the mountains of the Dominican 
Republic. Together, we built a school, established a maternity 
clinic, organized a youth club, among other things.
    I believe that these were useful endeavors for the village, 
and I did some good, I suppose, for those living there during 
my service. I know that I benefited far beyond I think anything 
I contributed to that small community from the experience.
    And my worldview was forever influenced by my experience as 
a Volunteer in that small town. It is where I developed my 
passion for public service, and it is where the seeds of my 
lifelong interest in Latin America first began.
    I have had the privilege of observing the Peace Corps over 
the past 50 years, a good part of those 50 years, 45 of them, 
been
deeply involved with the organization as a member of this body 
as well during my 30 years in the Senate. And let me state 
without reservation that it has been and remains a remarkable 
organization.
    In this city of partisan divides, the Peace Corps has 
always managed to stay above the fray and enjoy strong 
bipartisan support. As you heard this morning from Johnny 
Isakson and certainly I experienced that during my three 
decades here as well, with great support on both sides of that 
proverbial aisle. And that is because the organization is at 
its heart all about Volunteers.
    More than 200,000 men and women, as you heard already, have 
served in 139 countries spanning the globe. And today, more 
than 9,000 Volunteers are serving in 76 countries. Eighty-five 
percent of those currently serving are recent college 
graduates. Eighty-four percent of them are under the age of 30. 
These demographics are much the same as when I served, with one 
exception. Today, 60 percent of our Volunteers are women.
    Each one of these individuals has served or is serving is 
mindful of the three goals that have guided the Peace Corps' 
mission for the last five decades, namely, to help people 
interested in countries meet their need for trained citizens, 
to help promote a better understanding of our own country, the 
Americas, to people all over the globe, and third, to help 
promote a better understanding of other peoples on the part of 
Americans.
    Last year, the Peace Corps submitted a comprehensive agency 
assessment of the organization to the Congress as mandated by 
law. And I am proud to have authored that particular provision 
calling for that assessment. So you could step back and take a 
look exactly where we are and where we are headed. Probably 
ought to be done every few years, in my view. Any organization 
ought to do it, but I am proud of the fact that Peace Corps has 
moved and taken steps already to not only make the assessment, 
but then to respond to the assessment, as they have seen it.
    Not surprisingly, that assessment reaffirmed the mission of 
the Peace Corps as articulated by the three goals that I just 
mentioned. The assessment also outlined six strategies for 
reforming and strengthening the organization as it looks ahead 
to the next 50 years.
    I would not take issue with any of those strategies, Mr. 
Chairman. But rather than reiterating those points made which 
you have already and the staff does, let me share with you some 
additional areas that I think merit the committee's attention 
as you make this assessment about the next 50 years of this 
organization, as this organization gets underway.
    First and foremost, as I stated earlier, the Peace Corps is 
all about Volunteers. Peace Corps management should never lose 
sight of that fact. And therefore, this committee should be 
thinking creatively about how to help the agency maximize the 
Volunteer experience.
    The committee has already acted on legislation in this one 
critical area, the safety and security of Volunteers. And I 
commend the committee and Senator Isakson for his leadership on 
this issue. We tried a year or so ago to get that bill passed, 
but I am so pleased this committee and the Senate itself as a 
body has already done that. And I gather the House will pick up 
the legislation shortly.
    When you reported the Katie Puzey Peace Corps Volunteer 
Protection Act of 2011 on the 26th of July, this legislation is 
a response, as all of you know, to the tragic murder of one 
Volunteer and the brutal rape of another. It is intended to 
encourage and support the steps the agency is taking to respond 
appropriately and sensitively to the victimized Volunteers and 
their families.
    And as importantly, it mandates preventive measures be 
taken to protect Volunteers from future incidents as well. And 
I was pleased to see the Senate, of course, pass the entire 
bill on the 26th of September.
    I know that as part of the committee's deliberations of 
this legislation, you struggled with the issue of the 
colocation of Volunteers. I was the only Volunteer in that town 
of Benito Moncion back in the 1960s. And for that reason, it 
was a unique experience.
    I think my Spanish improved dramatically because I didn't 
have the opportunity to converse in the evenings with a fellow 
Volunteer. I learned the customs. I became far more involved in 
that community for 2 years I think as a result of being the 
only Volunteer in that community.
    But having said that, I think there is many circumstances 
where colocation makes a great deal of sense, particularly in 
this day and age and the circumstances under which people are 
serving. I believe the agency should show flexibility and 
common sense in this area. It may be particularly appropriate 
in areas with high crime rates or when the nature of the 
project being undertaken is larger than any one Volunteer could 
handle on their own.
    The Peace Corps itself has made great strides in protecting 
Volunteers against sexual assault, and I commend them for that. 
Under Director Williams, the Peace Corps has issued a set of 
core principles to ensure that timely and compassionate support 
is available to victims of sexual assault, as well as 
guidelines and training for responding promptly and effectively 
to an incident of sexual assault.
    In addition, the Peace Corps has created a Volunteer sexual 
assault panel made up of outside experts and former Volunteers 
who were victims themselves of sexual assault in order to 
provide advice and input to the Peace Corps sexual assault risk 
reduction and response strategies. And you will hear more about 
that in the testimony from Director Williams this morning.
    All of these efforts are in an attempt to provide greater 
security and support for that Volunteer, which is the core, 
obviously, of this entire discussion. Volunteers are spread 
throughout the world, and the staff and directors of the Peace 
Corps must be supported in these efforts to provide better 
protection and security for the Volunteer.
    Another way to improve, I think, Volunteer experience is to 
institute a formal mechanism for getting feedback from 
Volunteers and for creating opportunities for future Volunteers 
to have access to these insights. Volunteers know better than 
anyone whether a site selection has been a mistake, and many of 
them have been over the years, whether a project has been 
poorly thought out, or whether the community really is 
welcoming of that Volunteer.
    They can provide that kind of information, and they ought 
to be listened to, in my view. They also know whether their 
country director or their health and security officers are 
there 24/7 for them, if needed. This is all useful information 
that headquarters should be sifting through and paying 
attention to.
    I attempted to tackle this and several other insights in 
the legislation that Johnny Isakson and I worked on together in 
2007 with the Peace Corps Volunteer Empowerment Act. 
Unfortunately, the bill never became law, as you heard earlier 
today from Johnny.
    But I would encourage us to look at those provisions. Some 
of them can be just implemented. You don't need laws to do 
them. They have the power, in my view, to implement a lot of 
these ideas without legislation.
    There has also been a debate over time as to how large the 
corps of Volunteers should be. Sarge Shriver was always rather 
expansive in his description of the size of the Peace Corps 
Program.
    President Bush called for doubling the number of Volunteers 
to 14,000 a few years ago. I was supportive of his call for a 
larger Peace Corps at the time, with a caveat, Mr. Chairman, 
that, first and foremost, the agency must ensure that the 
Volunteer experience wouldn't be diminished in the process. And 
that always ought to be central.
    So any increase in size must keep in mind these provisions 
about providing that Volunteer with the safety, the security, 
and the support they need. Just expanding the numbers without 
doing that, in my view, would be a tragedy, and welcoming a 
tragedy to occur in too many instances. But I certainly would 
like to see the numbers increased. But to increase them, you 
have got to provide that support as well.
    The number of Volunteers has grown modestly over the past
9 years, but it certainly did not double, as we all know. It 
was in part, obviously, resource questions, which you are, 
obviously, grappling with today again as well. In part, it was 
an enormous undertaking to screen more Volunteers, sign on new 
countries, and identify additional sites for Volunteer 
placements as well. All of those factors have contributed to 
that result.
    In light of the serious Federal deficit and mounting 
Federal debt, it may be unrealistic to believe that you will be 
able to find the resources to support such an expansion for the 
foreseeable future. Now your energy may be better spent 
maintaining funding levels to support the 9,000-plus Volunteers 
that are currently serving.
    Since the Peace Corps opened its doors, there has also been 
a debate about the so-called 5-year rule, which places term 
limits on Peace Corps management and staff. The purpose of that 
rule has always been to keep the organization infused with 
fresh ideas. I, for one, have supported this policy over the 
past 45 years because it also reinforces the concept that the 
organization is about the Volunteers and not about management 
or staying on a job for a career in the Peace Corps.
    Certainly, there needs to be flexibility in certain areas, 
such as health and security, where experience is absolutely 
critical. But I believe the director has sufficient discretion 
to respond to specific requirements as they arise while still 
preserving the spirit of the 5-year rule.
    The Peace Corps has done a very good job, in my view, of 
fulfilling its first and second goals. Where it has done less 
well over the years, I would point out, is with respect to the 
third goal that was outlined back 50 years ago, namely, 
promoting a better understanding of other peoples on the part 
of Americans.
    There is, of course, the Paul Coverdell World Wise School. 
Paul, obviously, is a former colleague of ours and was Peace 
Corps director, and I strongly supported his nomination at the 
time that he was nominated for that position. And naming this 
organization, this program for him I thought made wonderful 
sense.
    But the resource allocated to that program and other third-
goal initiatives have been miniscule over the years, Mr. 
Chairman. In FY 2010, the Peace Corps received an appropriation 
of $400 million. Of that, $1.8 million was spent on the third-
goal activities.
    Many of the third goal activities are being undertaken by 
returned Volunteers on their own, with little or no support 
from the agency. Clearly, there are cost-effective ways to 
harness the experience and energy of the 200,000 alumni of 
Returned Volunteers. Many of them are eager to give back to 
their communities, to share their experiences as Volunteers, as 
witnessed by the turnout of some 5,000 or 6,000 that I had the 
privilege of addressing in the amphitheater of the Arlington 
Cemetery on that Sunday that Harris and Kevin and, of course, 
Aaron were all part of that program where we recognized and 
memorialized the 300 Volunteers who lost their lives during 
service as Volunteers.
    But again, that 5,000, if you had asked them that day to 
get up and do something in Washington, DC, I guarantee you, 95 
percent of them would have joined not in the march just with 
the flags going down toward the Lincoln Memorial, but would 
have been delighted to be asked once again to Volunteer to do 
something on behalf of their country.
    The Peace Corps needs to devote, I think, more thinking and 
resources to enable more Americans to learn about the world and 
about public service from those who served as Volunteers and 
have returned to their communities.
    And finally, let me just say a word or two, if I can, about 
the Peace Corps Response Program. Formally established as the 
Crisis Corps during the Clinton administration, this was a very 
creative way to harness the skills of former Peace Corps 
Volunteers to assist on a short-term basis in providing 
emergency, humanitarian, and reconstruction assistance at the 
community level in the aftermath of natural disasters.
    And while Peace Corps Response Volunteers are generally 
deployed overseas, they were deployed domestically as well in 
2005 to assist in the relief efforts associated with Hurricane 
Katrina. And this committee should encourage, in my view, the 
agency to continue to build its roster of returned Volunteers 
who can be called upon and who would be delighted to be asked 
when disaster strikes to put their skills and that 
determination to do something, to be a part of something larger 
than themselves to better mankind.
    With those thoughts, Mr. Chairman, again, I can't tell you 
what an honor it was to be asked to come back up to this room, 
which holds many, many fond and cherished memories, and I thank 
you.
    [The prepared statement of Senator Dodd follows:]

             Prepared Statement of Hon. Christopher J. Dodd

    Mr. Chairman, members of the subcommittee thank you for inviting me 
to share my thoughts on a subject matter near and dear to my heart--the 
Peace Corps. This is certainly an opportune time for the committee to 
reflect on the record of the Peace Corps, as it celebrates 50 years of 
public service by its Volunteers. Given how much the world has changed 
since March, 1, 1961, when President Kennedy signed the Executive order 
establishing the Peace Corps, it is also an appropriate time to take 
stock of any challenges facing the organization so it will remain 
relevant and productive for the next 50 years.
    Let me say at the outset that I think Aaron William, the current 
Peace Corps Director, is doing a fine job and is the right person to 
lead the organization into its next 50 years. I may be slightly biased 
about Aaron as his service in the Peace Corps overlapped mine in the 
Dominican Republic. As many of you know, I served as a Peace Corps 
Volunteer back in the days when I still had dark hair. Like many other 
Peace Corps Volunteers, I was fresh out of college and learned on the 
job with the support of the wonderful families in my village of Benito 
Moncion. Together we built a school, established a maternity clinic, 
and organized a youth clinic. I believe that these were useful 
endeavors for the village and that I did some good for those living 
there during my service. I know that I benefited enormously from the 
experience and my worldview was forever after influenced by my 
experience as a Volunteer. It is where I developed my passion for 
public service and it is where the seeds of my lifelong interest in 
Latin America first began.
    I have had the privilege of observing, up close, the Peace Corps 
over the majority of its first 50 years. I have been deeply involved 
with the Peace Corps for 45 of the 50 years since its creation. And let 
me state without reservation that it has been and remains a remarkable 
organization. In this city of partisan divides, the Peace Corps has 
always managed to stay above the fray and enjoy strong bipartisan 
support, and that is because the organization is at its heart all about 
the Volunteers. More than 200,000 men and women have served in 139 
countries spanning the globe. Today more than 9,000 Volunteers are 
serving in 76 countries. Eighty-five percent of those currently serving 
are recent college graduates and 84 percent of them are under the age 
of 30. These demographics are much the same as when I served, with one 
exception: today 60 percent of our Volunteers are women. Each one of 
these individuals has served or is serving, mindful of the three goals 
that have guided the Peace Corps' mission for the last five decades, 
namely to help people in interested countries meet their need for 
trained citizens; to help promote a better understanding of Americans 
on the part of the people served; and to help promote a better 
understanding of other peoples on the part of Americans.
    Last year the Peace Corps submitted a comprehensive agency 
assessment of the organization to the Congress as mandated by law. Not 
surprisingly that assessment reaffirmed the mission of the Peace Corps 
as articulated by the three goals that have served it so well. The 
assessment also outlined six strategies for reforming and strengthening 
the organization as it looks ahead to the next 50 years. I would not 
take issue with any of these strategies. But rather than reiterating 
the points made in the agency's assessment, let me share with you some 
additional areas that merit the committee's attention as the next 50 
years of the organization gets underway.
    First and foremost as I stated earlier--the Peace Corps is all 
about the Volunteers. Peace Corps management should never lose sight of 
that fact. And therefore this committee should be thinking creatively 
about how to help the agency to maximize the volunteer experience.
    The committee has already acted on legislation in one critical 
area--the safety and security of the Volunteers--when it reported the 
Kate Puzey Peace Corps Volunteer Protection Act of 2011 on July 26 of 
this year. This legislation is in response to the tragic murder of one 
Volunteer and the brutal rape of another. It is intended to encourage 
and support the steps the agency is taking to respond appropriately and 
sensitively to victimized Volunteers and their families. As 
importantly, it mandates preventative measures be taken to protect 
Volunteers from future incidents. I was pleased to see the Senate pass 
this bill on September 26, and hope the House will quickly follow suit.
    I know that as part of the committee's deliberations of this 
legislation you struggled with the issue of the colocation of 
Volunteers. I was the only Volunteer in my community and for that 
reason it was a unique experience. But having said that I think there 
may be circumstances when colocation makes sense. I believe the agency 
should show flexibility and common sense in this area. It may be 
particularly appropriate in areas with high crime rates or when the 
nature of the project being undertaken is larger than one Volunteer can 
handle.
    The Peace Corps itself has made great strides in protecting 
Volunteers against sexual assault. Under Director Williams, the Peace 
Corps has issued a set of core principles to ensure that timely and 
compassionate support is available to victims of sexual assault as well 
as guidelines and training for responding promptly and effectively to 
an incident of sexual assault. In addition, the Peace Corps has created 
a Volunteer sexual assault panel made up of outside experts and former 
Volunteers who were victims of sexual assault in order to provide 
advice and input on Peace Corps' sexual assault risk reduction and 
response strategies. All of these efforts are in an attempt to provide 
greater security and support to the Volunteers spread throughout the 
world and the staff and directors of the Peace Corps must be supported 
in these efforts.
    Another way to improve the Volunteer experience is to institute a 
formal mechanism for getting feedback from Volunteers and for creating 
opportunities for future Volunteers to have access to those insights. 
Volunteers know better than anyone whether a site selection has been a 
mistake, whether a project has been poorly thought out, or whether a 
community really is welcoming of the Volunteer. They also know whether 
their country director or their health and security officers are their 
24/7 for them, if needed. This is all useful information that 
headquarters should be shifting through and paying attention to. I 
attempted to tackle this and several other issues legislatively in 2007 
with the Peace Corps Volunteer Empowerment Act. Unfortunately the bill 
never became law.
    There has also been debate over time about how large the corps of 
Volunteers should be. President George W. Bush called for doubling the 
numbers of Volunteers to 14,000 over a 5-year period. I was supportive 
of President Bush's call for a larger Peace Corps with the caveat that 
first and foremost the agency must ensure that Volunteer experience 
wouldn't be diminished in the process. The number of Volunteers has 
grown modestly over the last 9 years but it certainly did not double in 
size. In part it was a resources question. In part it was an enormous 
undertaking to screen more Volunteers, sign on new countries and 
identify additional sites for Volunteer placements.
    In light of the serious federal deficit and mounting federal debt, 
it may be unrealistic to believe that you will be able to find the 
resources to support such an expansion for the foreseeable future. Your 
energy may be better spent maintaining funding levels to support the 
9,000 plus Volunteers that are currently serving.
    Since the Peace Corps opened its doors there has also been a debate 
about the so called 5-year rule, which places term limits on Peace 
Corps management and staff. The purpose of the rule has always been to 
keep the organization infused with fresh eyes and ideas. I for one have 
supported this policy because it also reinforces the concept that the 
organization is about the Volunteers and not about management. 
Certainly there needs to be flexibility in certain areas, such as 
health and security where experience is critical. I believe the 
director has sufficient discretion to respond to specific requirements 
as they arise while still preserving the spirit of the 5-year rule.
    The Peace Corps has done a very good job of fulfilling its first 
and second goals. Where it has done less well is with respect to the 
third goal, namely promoting a better understanding of other peoples on 
the part of Americans. Yes, there is the Paul Coverdell World Wise 
School program. But the resources allocated to that program and other 
third-goal activities are miniscule. In FY 2010 the Peace Corps 
received appropriations of $400 million. Of that amount $1.8 million 
was spent on third-goal activities. Many of the third-goal activities 
are being undertaken by returned Volunteers--on their own and with 
little or no support from the agency. Clearly there are cost-effective 
ways to harness the experiences and energy of the 200,000 alumni of 
returned Volunteers. Many of them are eager to give back to their 
communities and to share their experiences as Volunteers. The Peace 
Corps needs to devote more thinking and resources to enable more 
Americans to learn about the world and about public service from those 
who served as Volunteers and have returned to their communities.
    Finally, let me say a few words about the Peace Corps Response 
Program--formerly established as the Crisis Corps during the Clinton 
administration. This was a very creative way to harness the skills of 
former Peace Corps Volunteers to assist on a short-term basis in 
providing emergency, humanitarian, and reconstruction assistance at the 
community level in the aftermath of natural disasters. While Peace 
Corps Response Volunteers are generally deployed overseas, they were 
deployed domestically in 2005 to assist in the relief effort associated 
with Hurricane Katrina. This committee should encourage the agency to 
continue to build its roster of returned Volunteers who can be called 
upon when disaster strikes to put their skills to work for the 
betterment of mankind.
    Mr. Chairman, thank you again for inviting me to participate in 
this very important hearing. I look forward to responding to any of 
your questions.

    Senator Menendez. Well, thank you, Senator Dodd. Thank you 
both for your insights and your service.
    And I know we normally don't ask questions of members or 
former members, but I am going to violate that rule and take 
advantage of your expertise.
    I heard your comments about Director Williams, and I take 
them to heart. I have a broader question that goes beyond 
Director Williams, and that is do you believe that there is a 
culture in the Peace Corps such that particularly those who 
lead it understand, incorporate, and act upon the very essence 
of the value of Volunteers and their insights, or is that 
something that needs to be further legislated in order for it 
to be guaranteed?
    Senator Dodd. Well, as I say, having sat in the chair you 
are in and watched it, I can't comment specifically on 
individuals. But my experience has been, like Senator Isakson, 
as a person who traveled obviously extensively through the 
Americas, but also around the world, I always made it a point 
to meet with Volunteers.
    I always found it to be not just something that was nice to 
do as a former Volunteer. Kind of an interesting perspective 
from a country. It isn't a highly sophisticated view, 
necessarily, but rather, a different point of view you get.
    And as a result of that, I come away, at least--and there 
may be exceptions to this--that Volunteers in many ways 
reflect, I think, the leadership, either the country director 
or the staffs, at both a country and a regional level. And in 
the years that I traveled, going back, I always witnessed 
people deeply committed to that culture of service, of 
Volunteering, of trying to make a difference.
    I always had a sense there was support. I always asked 
them, by the way, was there anything I need to know about how 
this is working, how you are being supported? Is the Peace 
Corps doing its job? I would be hard pressed to cite an 
example, Mr. Chairman, over the years where a Volunteer, who 
never was shy about expressing themselves on any number of 
matters, took the opportunity to say we have a major problem. 
We have a problem here. We are not getting the level of support 
that we believe we ought to be getting.
    So my answer to your question is--based on what I know and 
my experience, limited as it may be, in that area--that the 
answer would be, yes, they do support it, that culture. And 
again, there are obviously examples where exceptions have 
occurred to that, but overall.
    In fact, I think it was interesting that even the 
Volunteers who testified recently about the difficulties, when 
asked the question--that received a lot of notoriety, as it 
should have. But when they were also asked what their general 
impression as a Peace Corps Volunteer is, they all had 
tremendously positive things to say about their experience as 
Peace Corps Volunteers. Even though they had gone through very 
trying and difficult circumstances, the latter comments didn't 
receive the notoriety that the initial comments did, for the 
obvious reasons.
    But I think it is worthy of note that the very same 
Volunteers who raised criticisms also expressed a deep 
commitment to the Peace Corps and its service and the job that 
it has done.
    Senator Wofford. I don't disagree with anything that Chris 
Dodd just--I agree with what Chris has just said. I would like 
to add that I have, over the years, been with the Peace Corps 
in many countries on visits. Like Senator Isakson, I make a 
point to it when I go in those countries.
    I find both the Peace Corps Volunteers who are there now 
and the staff, on balance, very much like it was in the days of 
Sargent Shriver. The culture that got started by Shriver and 
Kennedy and all of us crazy people who started it in 1961 is 
very strong.
    The 5-year rule is not just a turnover. It was called 
``Shriver in, up, and out.'' And it was called ``the 5-year 
flush.'' But the purpose of it was new blood, but it was linked 
to a policy there would be high priority in appointment of all 
jobs to returned Peace Corps Volunteers, and our excellent, and 
I think outstanding, director, Aaron Williams, now has the top 
three people in the agency with him--Returned Volunteers.
    They pervade most of the country staffs. The leadership of 
those country programs, of course, varies as the ambassadors 
from the United States of the other kind vary. I can't, 
obviously, speak for--how many countries are we in now?--77 
countries, not at all. But a lot of people say, oh, the old 
days of those first pioneers in the Peace Corps, that was the 
golden time.
    For the Volunteers who are there now, it is their golden 
time, and I find them very much like them. And like our day, 
some of the country directors disappoint you, but I think there 
is outstanding leadership in the country directors. So I am 
optimistic about the Peace Corps' ability to meet the challenge 
of a 21st century very different world.
    Senator Menendez. I have no doubt about the Volunteers 
themselves. My question was to whether there is a culture 
within the organization that does the very essence of what you 
have suggested, Senator Dodd, that listens to Volunteers, 
responds to them, and incorporates their ideas in order to make 
the Peace Corps better? And that in the context, for example of 
security, was it as responsive as it should have been.
    I have no doubt about the Volunteers being the type that 
would say what is on their mind and let it be known. I am just 
wondering whether there is a culture at the organization that 
actually incorporates those ideals.
    With that, let me recognize Senator Rubio.

             OPENING STATEMENT OF HON. MARCO RUBIO,
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you. And I didn't know there was a 
rule we couldn't ask former members for comments. And so, that 
is good to know when I come back one day. [Laughter.]
    I need to put that in here.
    Senator Dodd. I was going to ask about that rule myself.
    Senator Rubio. Oh, good. Well, actually, I had hoped to 
engage you in a quick conversation about this.
    Senator Dodd. Yes.
    Senator Rubio. I will actually waive most of my opening 
statement, there is just a couple of things I want to point 
out. The first is I am very proud of the fact that my alma 
mater, the University of Florida, ranks No. 2 in the country as 
a fertile ground for recruiting Peace Corps Volunteers, and I 
think that is something we Gators are very proud of.
    I am a believer in the Peace Corps. I am a believer in that 
Americans engaged internationally is positive for our country, 
positive for our future, and positive for the world. I know we 
are having a debate right now about what America's role in the 
world should be, and there are some voices in America that are 
asking us to look inward. And we certainly have serious 
problems we have to solve here, but I hope we never 
underestimate the power of people all over the world having 
access to a free people with the diversity of people that we 
are able to offer and the idealism at a time that I think we 
have an extraordinary perfect storm.
    We have what I believe in this generation of younger 
Americans, one of the most idealistic, service-oriented, 
community-oriented, collaboration-oriented young Americans 
perhaps in the history of our country. It is amazing to watch 
16-, 17-, 18-, 19-year-olds come together on social networks 
behind causes and ideas, and I think that bears great 
opportunity for our future.
    Likewise, I think we have this extraordinary talent wealth 
in our Nation of people that are reaching retirement, but are 
extremely active, healthy, and capable of serving for years to 
come. In fact, maybe repeat Volunteers who maybe served in the 
1970s and 1980s who are now part of the famous baby boom 
generation who now are going to retire, but really have many, 
many years of productivity ahead of them.
    And so, my question really in terms of engaging is two 
things. No. 1: What opportunities lie in those two things?
    And in particular, I don't believe the Peace Corps should 
be an arm of American foreign policy. It is obviously to serve. 
How much coordination there is between the Peace Corps and 
America's foreign policy interests and where America needs to 
be engaged?
    Clearly, there is an environment of limited resources, and 
there will always be limited resources. There are areas that 
are going to give you higher returns per Volunteer. I don't 
know how much of that has been discussed, but certainly, there 
are areas where I think we can get a higher rate of return on 
our investment from a foreign policy perspective. I am not sure 
that is a bad thing or in any way counter to the overall 
mission of the Peace Corps.
    Senator Dodd. Well, a great observation. I note here I look 
at numbers of next to California, and Florida has second--I 
think the second-largest number of Volunteers serving today in 
the country. I am looking at a number here, Senator, 324 
Volunteers from Florida that are actively involved in the Peace 
Corps.
    I just agree with your comments. I think we are looking at 
a generation of people who want to serve, and that is evidenced 
by the number of applications the Peace Corps gets. I will let 
the staff give you the exact numbers, but I think the numbers 
are as high up. I don't think they are a reflection necessarily 
of the economic times we are in. I think they have been rather 
consistent, that desire to be a part of this, not just this 
organization, but to give back I think is evidenced not only by 
application to the Peace Corps, but AmeriCorps, and a variety 
of other opportunities that are around today for people to step 
up and serve.
    I also think it is worthwhile to talk about older 
Americans. This head of gray hair makes me more sensitive to 
the subject as time goes on. But I think we are missing an 
opportunity. I mentioned statistically the number of people who 
are under the age of 30 in the Peace Corps, about 80-some odd 
percent. Is it 84, 85 percent? And I think it is worthwhile to 
be going out and attracting.
    One of the things I have raised when I was sitting in the 
chairman's chair was the health examinations and criteria, and 
they are rather stringent, and I understand why. But if you are 
going to make the same standards apply to a 22-year-old as you 
do to a 65-year-old, obviously, you are going to have a very 
few number of people who qualify.
    I am not suggesting we ought to become lax in that regard, 
but I think we are missing an opportunity to have older 
Americans who either have served or would want to serve, who 
bring a wealth of experience. And not to malign younger people, 
but there is nothing like someone who has actually had a 
lifetime of experience in certain areas to be able to provide 
that service along the way.
    And third, on your point about where the Peace Corps 
serves, and again, I think this is extremely worthwhile to talk 
about. And again, you have got to be careful. Obviously, the 
world we live in today poses a lot more dangers and hazards 
than we did back 40 years ago. And I think it is really 
worthwhile, though, that we begin to focus.
    Now correct me if I am wrong here, again, but I think in 
the Arab world, is that correct, we have only two programs, 
Morocco and Jordan. I tried for years to get Egypt to consider 
having the Peace Corps. I was never able to actually convince 
them to move in that direction, but we ought to, in my view.
    And we ought to be reaching into those areas where exactly 
the kind of job the Peace Corps has done over the years, giving 
other people an opportunity to discover who we are through 
those Volunteers I think would be tremendously valuable. It 
shouldn't be part of short-term foreign policy. That has always 
been the goal.
    I recall in the Dominican Republic, in fact, in 1965, when 
President Johnson put the Boxer off the coast of Santo Domingo, 
the entire American delegation was asked to leave the country 
except the Peace Corps. The Peace Corps had already in a few 
short years had established a reputation of being involved in 
things other than foreign policy. I know that doesn't get 
repeated all the time, but it was worthy of note in a way that 
we are not seen as part of that foreign policy goal.
    The broader context I think is exactly what John Kennedy 
talked about in his speech in the Cow Palace, by the way, as 
being a part of the overall image of the United States. He 
wanted it so enhanced as a result of a Peace Corps program.
    So, in a larger context, it is. It is just the day-to-day 
context, I think it is wise to keep it out of it. Too often you 
get yourselves in a situation that would cause, I think, damage 
to the Peace Corps and the mission which it was designed to 
fulfill, but I think your three points are excellent ones.
    Senator Wofford. Senator Rubio, I would like to comment on 
the question of the Peace Corps and its contribution to foreign 
policy. The Secretary of State Dean Rusk put it very well, and 
the President endorsed it, and Sargent Shriver endorsed it. The 
Peace Corps will contribute to American foreign policy to the 
extent that it is not seen as an instrument of American foreign 
policy.
    Now I agree with your concern that there are countries of 
great power and importance in the world where we don't have 
Peace Corps Volunteers now, and I personally would want not 
just in terms of winning their support at all in foreign 
policy, but Peace Corps should be in those countries.
    We are only minimally in China, and there may be ways that, 
you know, they want tens of thousands of English teachers in 
China, that there is a larger role the Peace Corps can play in 
China. But India, Brazil, there are a number of countries that 
I would love to see the Peace Corps go, and I think it should 
be a priority.
    Now the matter of older Volunteers is close to my heart, my 
heart being, having been beating for 85 years. Sargent Shriver, 
from the very beginning tried--well, first place, decided that 
despite the origin in which it was sensed as a youth corps 
almost, in fact, the first version of a Peace Corps was called 
the Point Four Youth Corps, ``Point Four'' being Truman's 
fourth point of special assistance to developing countries.
    Shriver from the beginning said, no, that is wrong. It 
should be for all ages. And he tried very hard, since more than 
half of the first Peace Corps Volunteers were in teaching, in 
formal teaching roles, 90 percent in Africa were in secondary 
schools of Africa. We doubled the number of secondary school 
teachers with the 400 that we had in Ethiopia in 1962, 1963, 
and 1964. It enabled their university to grow and everything 
else.
    But they were--he tried hard. He had been school board 
chair, president in Chicago. He went to the teachers 
associations to recruit experienced teachers. Now we had about 
20 over 50 and some over 60 in the 400 Peace Corps in Ethiopia. 
Experienced teachers played a major leavening role or mentoring 
role to the BA generalists that were the recent college 
graduates.
    So I would personally put--and the Peace Corps has begun in 
recent years, even before the great Aaron Williams Peace Corps
50-plus recruiting effort to get more, I think it is not much 
more than 10 percent who are older Americans. I think a major 
problem now for older Americans is the 2-year rule.
    In the report that Kevin Quigley is going to put in the 
record, ``A Call To Peace,'' this remarkable survey that Peter 
Hart did, the Volunteers say, no, stick by the gold standard of 
the 2-year rule. There is something very important to that. But 
they also said there should be other channels of Volunteer 
service that could be 1 year or 9 months, and some of us who 
have been involved with this are urging that Congress develop a 
shorter term Volunteers system that would be parallel to the 
Peace Corps, perhaps a track of the Peace Corps.
    The Volunteers here said we want that, and a lot of them 
would like to go in themselves, now that they are 60 and 65 
themselves. So I would welcome your interest in keeping the 
Peace Corps on the track of a much larger proportion being 
experienced.
    And let me add that the one area where the Volunteers felt 
they weren't making as much a contribution as they did in 
mutual understanding was in providing skilled manpower to help 
developing nations meet their human needs. And that the older 
Americans would be able, 1 year or less term, be able to come 
in much larger numbers with the kind of experience that could 
improve the impact of the Peace Corps in other countries.
    Senator Menendez. Thank you. Thank you very much.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And I am so pleased to be able to welcome back Senator Dodd 
and Senator Wofford, former Senators. It is very nice to have 
you both here.
    And Senator Rubio, I know you don't remember this, but 
Jimmy Carter, when he campaigned for President, talked about 
his mother, Miss Lillian, who, as an older woman, went into the 
Peace Corps. And I think that probably did as much as anything 
to recruit older adults into the Peace Corps. So we need 
somebody high profile to talk again about going into the Peace 
Corps at an older age.
    I would point out since, Harris, you are here, the 
expansion of AmeriCorps does provide an opportunity for a lot 
of older Americans to serve here at home. So I know we are here 
to talk about the Peace Corps, but I thought it was worth 
raising that.
    Senator Dodd, I had the opportunity this summer to go to a 
reunion of former Peace Corps Volunteers in Stoddard, NH, a 
small town in the western part of our State. And there were 
Volunteers there who had served from the very first days of the 
Peace Corps to someone who had just come back, I think, about a 
year ago.
    And there were two things that struck me about talking to 
them. One was everyone there talked about that experience as a 
life-changing experience, something that they would keep with 
them. It was transformational in what they have done with their 
lives.
    But the other thing was the issue that you raised, which is 
now that they are back, now that they have had that experience, 
they feel like they want to recapture and serve in some other 
way. So I wondered, as you have been thinking about this issue, 
if you had any--you talked about reactivating people to serve 
in disasters like Katrina. But do you have any thoughts about 
whether we should try and create an official structure to do 
that, or are there any other ways in which we can encourage 
those former Peace Corps Volunteers to continue to serve the 
country?
    Senator Dodd. Well, I mentioned the Paul Coverdell World 
Wise group, and again, I say respectfully because I know Aaron 
Williams and the staff trying to allocate resources are 
difficult. I mean, the budget, what is it now, $375 million, I 
think, is when you think of it, in comparison, I know this gets 
often cited. Actually, the appropriations for the military 
bands is about the same budget as that of the Peace Corps.
    That is not to suggest it is not worthy of the 
appropriation of military bands, but just to put it in 
perspective of the 9,000 Volunteers and the staffs, to operate 
all of that, roughly operate in the same kind of a budget.
    And so, when I mentioned earlier the $1.8 million that has 
been allocated to deal with the World Wise Program and 
regretting that it is such a small percent of resources. But it 
is a place where you could start to examine exactly how to 
fulfill that third goal, the one of making Americans more aware 
of the world in which we live. And I think that is very 
valuable.
    I think what Senator Rubio said a minute ago is worthwhile. 
Obviously, you have got constraints, and you are going through 
that difficult time up here to allocate resources. But it also 
is a critical time, and with the opportunities today and the 
tensions around the world that we are dealing with, not to 
close the doors, not to take advantage of these returned 
Volunteers as part of the educational process of a nation that 
has depended upon its role in the world to succeed in so many 
different ways.
    So that is an area to me that ought to be examined further, 
and how you could activate and utilize these Volunteers in 
school systems to talk about their experiences. It is not 
talking about providing an income for them, but merely the 
opportunity to do it.
    Senator Shaheen. Right.
    Senator Dodd. I think you would find a very excited 
organization. One of the Volunteers--we always said one of the 
difficulties coming back, adjusting in the first instance, it 
was obviously awkward. All of a sudden, I was literally dropped 
off in those days in the Peace Corps.
    I was driven in a van and dropped in this town with a bunk 
bed and a trunk, and then they drove off. I had no idea where I 
was. No one introduced me. Things have changed since the 1960s 
on how they leave you in a place. But obviously, I survived.
    But people have said to me, well, that must have been very 
difficult----
    Senator Menendez. Now I understand so much about you. 
[Laughter.]
    Senator Dodd. Thank you. I should have told you that years 
ago, Bob.
    But the more difficult adjustment in many ways was coming 
back. I came back on Christmas Eve 1968, and 1968, you probably 
could have left 20 years earlier. That year, obviously, with 
the assassinations of Martin Luther King and Bobby Kennedy, the 
strife in our cities, was a very tough year. You had the Tet 
Offensive in Vietnam. The war was raging. The opposition was 
growing.
    But readjustment in many ways was almost harder than 
adjusting to this community in the Dominican Republic. And you 
will hear that from Volunteers. And part of it is they want to 
talk about this experience. They want to share the insights, 
what they learned, where they lived.
    And I think, again, it doesn't take much to provide those 
opportunities and to connect in an educational setting, 
particularly in the elementary, middle schools, and high 
schools, with those returned Volunteers, the 200,000 of us 
spread all across this country. To have people who could work 
in that area alone, I think we would find a very willing 
constituency, such as you ran into in New Hampshire last 
summer.
    I don't know, Harris, if you have got any thoughts on that 
at all?
    Senator Wofford. I am agreeing with you.
    Senator Shaheen. Let me just--I don't have any other 
questions, but I wanted to pick up on the resource concern that 
you raise. And obviously, it is something that we are all 
thinking a lot about.
    But I think if we did a cost-benefit analysis on the 
goodwill that is produced by Peace Corps Volunteers and 
compared that against money that is spent in lots of other ways 
on American foreign policy, that there is no doubt that money 
invested in the Peace Corps has a significant return that is 
well worth the investment that we are putting in.
    Senator Dodd. No question about--just again, the world has 
changed today. Here I was back in my village, and I picked up 
my cell phone and I dialed my family. And in 1966, 1967, and 
1968, I got letters from family. It was usually about a week, 2 
weeks after they had sent them. But I had no ability to 
communicate.
    Senator Rubio pointed out today with the social networking 
and media that is available, today it is remarkable how much 
communication can occur with Volunteers and their opportunity 
to be heard. So I, for one, would like to see us take advantage 
of those resources and this technology that allows greater 
communication to be able to do a better job. But we thank you 
for your support.
    Senator Shaheen. Thank you.
    Senator Menendez. Well, with the thanks of the committee to 
both of you for your incredible insights, we appreciate you 
being here. We appreciate your service, and we look forward to 
continuing to engage with you in the days ahead.
    Senator Dodd. Well, thank you, Senator, very much. Thank 
you again, and thank you for the work you are doing and the 
committee is doing and your support of the Peace Corps.
    And I know these are tough choices to have to make, but it 
is heartening to know that there is still that spirit of 
bipartisan support of this organization at a time when that 
seems to be harder to find on matters, that this is still an 
area.
    You know, the directors over the years, one of the best 
directors we ever had was Loret Ruppe, whose husband was a 
Congressman from, what was it, Wisconsin? Michigan. Loret had 
the job--
of course, she passed away a number of years ago. But President 
Reagan nominated her, and she was remarkable.
    I remember those years because a lot of our budget debates 
in those years, it was the one area in every single year of the 
Reagan administration, President Reagan supported an increase 
in the budget of the Peace Corps. I think the only agency in 
Government that had that unique distinction during the 8 years 
of his Presidency, and a lot had to do with Loret being such a 
great advocate at the time, but also to President Reagan's 
great credit, saw the value of this organization in ways that 
certainly enhanced I think not only the organization, but the 
job that they were doing around the globe.
    So we thank you.
    Senator Menendez. Well, thank you both.
    And with that, let me call up the present director of the 
Peace Corps, Aaron S. Williams. He is the 18th director of the 
Peace Corps. He served as a Peace Corps Volunteer from 1967 to 
1970, first in a training program for rural school teachers, as 
has been said, in the Dominican Republic, and then as a 
professor of teaching methods at the university.
    He later went on to become the coordinator of minority 
recruitment and project evaluation officer of the Peace Corps 
in Chicago, attained the rank of career minister in the U.S. 
Senior Foreign Service at the U.S. Agency for International 
Development and was USAID's mission director in South Africa.
    We look forward to your testimony. Mr. Director, we ask you 
to limit your remarks to about 5 minutes. Your full statement 
will be included for the record, and then we will have a 
discussion with you after that.

          STATEMENT OF HON. AARON WILLIAMS, DIRECTOR,
                  PEACE CORPS, WASHINGTON, DC

    Mr. Williams. Thank you, Mr. Chairman.
    Chairman Menendez, Ranking Member Rubio, members of the 
subcommittee, thank you for the opportunity to testify today.
    This is really an exciting time for the Peace Corps. As you 
know, we marked our 50th anniversary this year, and we have put 
in place sweeping reforms of policies, procedures, and 
practices to make certain that this remarkable agency and our 
outstanding Volunteers thrive for the next 50 years.
    The Peace Corps was founded in 1961 to promote progress and 
build bridges between Americans and peoples overseas. Fifty 
years later, our mission is not only still relevant, it is even 
more important in an increasingly complex world. From combating 
HIV/AIDS to serving as America's most effective grassroots 
ambassadors, Volunteers are doing essential work for our 
country.
    When I became director, I ordered my team to do a top-to-
bottom review of agency operations. The result is the 
comprehensive agency assessment the Peace Corps submitted to 
Congress last year. The assessment is our blueprint for reform. 
It lays out a vision for the agency, a vision which states that 
the Peace Corps
 will be a leader in partnership with others in the global 
effort to further human progress and foster understanding and 
respect among people.
    In order to achieve this vision, the assessment put forth a 
six-part strategy that we are busy implementing. We have put in 
place a new objective and an evidence-based approach to 
deciding where we operate and how we allocate Volunteers. This 
process, called the country portfolio review, represents a 
significant step forward.
    We are strengthening the technical assistance we provide 
around the world by focusing on and scaling up a limited number 
of highly effective projects. We are putting in place a 
streamlined, state-of-the art process to recruit, select, and 
place our Volunteers. And we intend to increase opportunities 
for Americans who have highly specialized skills and 
significant work experience, but who might not be able to make 
a 2-year commitment.
    We are expanding our efforts to advance what we at Peace 
Corps call the third goal, bringing home the rich experience of 
a Peace Corps Volunteer to help Americans to better understand 
the nations of the world. And we are systematically 
strengthening management operations through updated technology, 
innovative approaches, and improved business processes.
    Our most important reforms lie in the area of Volunteer 
safety and support. Nothing is more important to me, as 
director of the Peace Corps and also as a Returned Peace Corps 
Volunteer, a Returned Peace Corps Volunteer who I might say had 
his life transformed by my service in the Peace Corps. Nothing 
is more important to me, Mr. Chairman, than the health, safety, 
and security of every member of our Peace Corps extended 
family.
    Peace Corps Volunteers represent the best America has to 
offer, and we owe them the very best that we can provide. Since 
I became director 2 years ago, it has become apparent to me 
that the Peace Corps has not always been sufficiently 
responsive or sensitive to victims of crime and their families. 
I sincerely regret that. This is not Peace Corps policy. This 
is not the Peace Corps way.
    Over the past 2 years, we have put in place new policies to 
minimize the risks faced by Volunteers and to improve the way 
we respond to victims of crime. While the Peace Corps cannot 
eliminate every risk Volunteers may face during their service, 
I am committed to making sure that we do everything we can to 
protect Volunteers and provide effective, compassionate support 
to them and their families when a tragedy does occur.
    We hired a nationally recognized leader in victims' rights 
to serve as the agency's first victim advocate. Her name is 
Kellie Greene, and Kellie is here with me today. She works hard 
every day to provide emotional, medical, legal, and other 
support to Volunteers who are victims of crime.
    We also issued Peace Corps' commitment to sexual assault 
victims, which makes clear that all Volunteers must be treated 
with dignity and respect, and we implemented new guidelines for 
responding to rape and sexual assault that detail our victim-
centered approach to incidents.
    We are already rolling out our new standardized and 
comprehensive training for Volunteers on sexual assault risk 
reduction and response. And we signed a very important 
memorandum of understanding with the Rape, Abuse, and Incest 
National Network, RAINN, the Nation's largest antisexual 
violence organization, to collaborate and share resources on 
sexual assault prevention and response.
    RAINN also serves on our new Peace Corps Volunteer sexual 
assault panel made up of outside experts, which includes, by 
the way, I might add, Mr. Chairman, representatives from DOD, 
the U.S. Army, the Department of Justice, and NGOs with 
experience in this field. They are all helping to make sure 
that our policies are based on the best practices.
    I welcome efforts in Congress to codify the reforms we have 
put in place, and I want to especially thank Senator Johnny 
Isakson and Senator Barbara Boxer for working so hard to ensure 
that all Volunteers, particularly victims of sexual assault, 
receive the support and services they need. Your commitment to 
the agency and to our Volunteers is truly inspiring, and your 
legislation is a fitting tribute to Kate Puzey, an outstanding 
young woman, a Volunteer who was killed tragically while 
serving in 2009.
    I am deeply grateful to Peace Corps Volunteers for their 
dedication and service, and I am committed to doing all that I 
can as director of the Peace Corps to protect and support them. 
I know that the members of the subcommittee share this goal, 
and I look forward to working with you and others to ensure the 
continued success of this wonderful agency, our beloved agency, 
the Peace Corps, and the remarkable Volunteers who serve around 
the world.
    And in closing, also, Mr. Chairman, let me also thank the 
first speakers today, Senator Chris Dodd and Senator Harris 
Wofford, who, of course, have a long, distinguished history of 
service to the Peace Corps and to our Nation. I appreciate 
their remarks.
    [The prepared statement of Mr. Williams follows:]

                Prepared Statement of Aaron S. Williams

    Chairman Menendez, Ranking Member Rubio, members of the 
subcommittee, thank you for the opportunity to testify today. This is 
an exciting time at the Peace Corps as we draw on 50 years of lessons 
learned and put in place new measures to ensure the agency and our 
outstanding Volunteers continue to thrive for decades to come. I am 
pleased to have the opportunity to tell you about the work we are doing 
to strengthen and reform all aspects of agency operations, and in 
particular our efforts to better protect the health, safety, and 
security of our Volunteers, who are the heart of Peace Corps.
                     the mission of the peace corps
    In 1961, President John F. Kennedy launched an innovative program 
to spearhead progress in developing countries and to promote friendship 
between the American people and peoples overseas. From its start, the 
Peace Corps had three goals: to help countries meet their need for 
trained men and women; to promote a better understanding of Americans 
overseas; and to promote a better understanding of foreign peoples and 
cultures here at home. Fifty years later, the agency's mission and 
goals are not only still relevant, they are more important than ever in 
an increasingly complex world.
    The Peace Corps achieves its goals by recruiting and training some 
of the most talented and dedicated people our country has to offer. 
They work in six different sectors--agriculture, business development, 
education, environment, health and HIV/AIDS, and youth development--and 
serve in 76 countries, from Central America to Africa, from the Middle 
East to Asia, and from Eastern Europe to the islands of the Pacific.
    Currently, more than 9,000 Americans, ranging in age from their 
twenties to their eighties, and from all 50 States, are serving as 
Peace Corps Volunteers. We deeply appreciate their willingness to leave 
the comforts of home to serve our country in some of the least 
developed and most challenging areas of the world. The work is often 
demanding, and the pay is minimal, but these patriotic Americans do 
incredible work, whether they are teaching English, training 
entrepreneurs, or promoting sustainable farming practices. In the words 
of President Reagan, ``Nowhere has the proud American tradition of 
voluntarism been better illustrated than through the Peace Corps.''
    There are other foreign aid agencies and programs in the Federal 
Government, but the Peace Corps is unique. Volunteers spend 27 months 
living and working in areas that other programs are often unable to 
reach. During their service, Volunteers do not just work with the 
community--they become part of it. They eat the same food, live in the 
same kind of housing, speak the same language and use the same 
transportation as other members of the community. By doing so, they 
build mutual trust and respect, and they are able to advance the 
development needs of the host country more effectively, while 
demonstrating American values of hard work, compassion, and commitment.
    Volunteers target some of the most debilitating diseases around the 
world. For example, they play a key role in our country's global 
response to HIV/AIDS, promoting behavior change and sustainable, 
culturally appropriate solutions to the pandemic. By mobilizing 
isolated communities and helping orphans and vulnerable children, 
Volunteers turn hope into action. Volunteers are also taking on the 
fight against malaria. Through education about malaria and the 
distribution of mosquito nets, Volunteers are combating a leading cause 
of death and disease in many developing countries. In all their work, 
Volunteers represent our country's highest values and ideals.
    Peace Corps Volunteers also serve as America's most effective 
grassroots ambassadors. By building person-to-person connections, they 
help to dispel misperceptions about the United States and to counter 
anti-American sentiment in areas of the world that may have little 
direct exposure to Americans. That is one reason why, throughout its 
history, across different Congresses and administrations, the Peace 
Corps has received strong bipartisan support for its important mission, 
including from this subcommittee.
    And, in turn, our Volunteers receive tremendous support from their 
host communities and countries. The Peace Corps only operates in 
countries where we are invited and those countries are deeply grateful 
for the work we do. In fact, the Peace Corps receives substantial 
support annually in cash and in-kind contributions from the countries 
in which we serve--some of the poorest countries in the world. These 
contributions help to keep our costs down, allowing the agency to 
operate globally on a shoestring budget--Peace Corps receives roughly 1 
percent of the Federal Government's overall foreign assistance 
spending.
    Volunteers' service to our country continues long after they have 
left the Peace Corps. As President Obama has said, ``Returned 
Volunteers, enriched by their experiences overseas, bring a deeper 
understanding of other cultures and traditions back to their home 
communities in the United States.'' Many former Volunteers--or, as we 
call them, Returned Volunteers--use their training and experience to 
become leaders in society, in areas ranging from private industry to 
development work, and from community service to Congress. The skills 
they acquire while serving--whether fluency in a foreign language, 
complex problemsolving, familiarity with a foreign culture or expertise 
in agricultural practices--are invaluable to the United States, as is 
the commitment to public service that the Peace Corps instills. 
Ultimately, the investment that we make in our Volunteers is repaid 
many times over, at home and abroad.
  peace corps' comprehensive agency assessment: a blueprint for reform
    The Peace Corps has had many successes, but there have been 
setbacks, too. In order to build on our achievements, improve our 
operations, and ensure we meet new challenges and opportunities head 
on, the agency has embarked on a wide-ranging series of reforms.
    As directed by Congress, the Peace Corps conducted a thorough self-
assessment and submitted a report to Congress last year that clearly 
articulates the agency's strategic vision for, among other things, 
Volunteer recruitment and placement, Volunteer and staff training, 
Volunteer programming, and medical care of Volunteers. The 
Comprehensive Agency Assessment is a blueprint for reform throughout 
the agency. It lays out a clear strategic vision--the Peace Corps will 
be a leader, in partnership with others, in the global effort to 
further human progress and foster understanding and respect among 
people. In order to achieve this vision, the Assessment puts forth a 
six-part strategy and a number of specific recommendations. In just 
over a year we have made significant progress in advancing the six 
strategies of the Assessment, and we have implemented or are 
implementing over three-fourths of the Assessment's recommendations, 
putting us on track to meet our aggressive timeline for implementation.
    Many of these recommendations, of course, require sustained and 
comprehensive efforts that will take some time, and some of them depend 
on action by Congress. I am grateful to the Foreign Relations Committee 
for approving one proposal, included in Senator Isakson's bill, that 
would address a serious management problem at our posts overseas. The 
provision would help provide for greater efficiency and consistency in 
how we hire and manage overseas staff, and I look forward to its 
enactment.
    The Assessment recommended that the agency take a deliberate, 
evidence-based approach to the countries where we operate and to the 
allocation of Volunteer and financial resources. This process, which we 
call country portfolio review, represents a significant step forward. 
The agency conducted the first ever portfolio review last year and work 
is already underway on this year's portfolio review. The portfolio 
review data was used to inform decisions about potential country 
openings, country closures, and the allocation of Volunteers.
    The Assessment also recommended that we strengthen the technical 
assistance we provide around the world by focusing on and scaling up a 
limited number of highly effective projects. As a result, our overseas 
posts are focusing their efforts on activities and projects with the 
greatest impact. At the headquarters level, the agency is in the 
process of developing program guidance and training packages that can 
be used all over the world to ensure greater consistency and quality. 
Our first training package will be Teaching English as a Foreign 
Language.
    Peace Corps has taken an important first step toward implementing a 
dynamic recruitment strategy. We are currently in the process of 
automating our application system so that we can create a more 
streamlined, customer-focused, competitive, state-of-the-art process 
for recruitment, selection, and placement of Volunteers. And we are 
working to launch a pilot program that will expand opportunities for 
Americans who have highly specialized skills and significant work 
experience, but who may not be able to make a 2-year commitment, to 
serve for shorter periods of time.
    The Assessment emphasized the need to elevate what we at Peace 
Corps call the ``Third Goal''--helping to promote a better 
understanding of other peoples on the part of Americans. The Third Goal 
is a critical component of our mission. This year we commemorated our 
50th anniversary and through activities and events, including Peace 
Corps being featured at the Smithsonian Folklife Festival, we have been 
able to educate Americans about peoples around the world. We encourage 
returned Volunteers to share their overseas experiences with Americans 
by, for example, speaking to elementary, secondary, and postsecondary 
classrooms in their communities through our Coverdell World Wise 
Schools Speaker's Match program.
    The most comprehensive strategy in the Assessment addresses the 
need to strengthen management and operations through updated 
technology, innovative approaches and improved business processes. It 
covers many activities and every office within the Peace Corps. The 
agency is working to turn these ideas into reality by emphasizing 
evidence-based performance management, providing additional training to 
staff, and conducting studies of operational activities and staffing 
patterns of several staff offices to identify efficiencies and 
streamline operations.
    Improving the agency's management structure has been one of my 
priorities since I was sworn in as director in 2009, which is why I 
hired the agency's first Director of Innovation and created the Office 
of Global Operations. Working closely with offices throughout Peace 
Corps, the Office of Innovation is spearheading efforts to find new, 
more efficient and effective ways to organize and operate across the 
agency, as well as to address the recommendations that resulted from 
the Assessment. The Office of Global Operations was created to provide 
overarching strategic support and management to the agency's direct 
Volunteer operations. This office is working to disseminate best 
practices, provide an organized, cohesive voice to agency leadership, 
and coordinate the activities of all overseas operations.
                 peace corps' commitment to volunteers
    Our most important reforms lie in the area of Volunteer safety and 
support. Nothing is more important to me, as Director of the Peace 
Corps, and as a returned Volunteer, than the health, safety, and 
security of every member of the extended Peace Corps family. Peace 
Corps Volunteers represent the best America has to offer, and we owe 
them our best in return.
    We give our Volunteers extensive training and we work hard to make 
sure that their service is rewarding, productive, and safe. But we 
recognize that there is always room for improvement. Since I became 
Director 2 years ago, it has become apparent to me that the Peace Corps 
has not always been sufficiently responsive or sensitive to victims of 
crime and their families. I sincerely regret that. None of us wants to 
inflict any additional trauma upon the victims of crime. That is not 
Peace Corps policy. That is not the Peace Corps way. All of us, past, 
present, and future Volunteers, are valued members of the Peace Corps 
community. A crime against one is a crime against all of us.
    Since the Peace Corps was founded 50 years ago, more than 200,000 
Americans have served as Volunteers in 139 countries, and we are all 
enormously proud of their remarkable service to the United States. I 
know that you share that pride. Volunteers embody compassion, 
generosity, and an unbridled belief that together we can achieve more 
than we ever could by working alone. It is these qualities that deepen 
our pain when there is a loss. We care profoundly about the welfare of 
our Volunteers. Every life lost and every act of violence against a 
Volunteer is a tragedy. The names of Volunteers who have died while 
serving are engraved on a memorial wall at our headquarters. They are 
not forgotten.
    The Peace Corps has met with a number of returned Volunteers who 
have shared personal experiences of rape and sexual assault. I would 
like to thank them publically for their courage in coming forward and 
for helping us to make needed reforms. Their insights are invaluable 
and have helped shape our commitment to make the survivor's perspective 
a critical part of our reforms. I am sorry for what they suffered, and 
I am committed to ensuring that their experiences are not repeated.
    Over the past 2 years, we have put in place new policies to 
minimize the risks faced by Volunteers and to improve the way we 
respond to victims of crime. We have been working closely with our 
Inspector General's office and have implemented or are implementing all 
of the recommendations from the Inspector General's report last year on 
our Volunteer safety and security program. While the Peace Corps cannot 
eliminate every risk Volunteers may face during their service, I am 
committed to making sure that we do everything we can to protect 
Volunteers and provide effective, compassionate support to them and 
their families when a tragedy does occur.
    I welcome efforts in Congress to codify the reforms we have put in 
place and I would like to recognize a member of the subcommittee, 
Senator Johnny Isakson, for his remarkable commitment to the well-being 
of Peace Corps Volunteers. I am very grateful to Senator Isakson for 
his efforts to ensure justice for the murder of Kate Puzey, an 
outstanding Volunteer who was killed in Benin in March 2009. Senator 
Isakson and Senator Boxer, another member of the subcommittee, have 
been working diligently to ensure all Volunteers--particularly victims 
of sexual assault--receive the support and services they need. I thank 
them for their willingness to work with all parties to ensure that 
their legislation, which passed the Senate
in September, meets our mutual goal of enhancing the support and safety 
of Volunteers.
        enhancing the health, safety and security of volunteers
    Under my leadership, the Peace Corps has implemented a number of 
reforms to ensure we fulfill our commitment to Volunteers:

  <bullet> We issued ``Peace Corps' Commitment to Sexual Assault 
        Victims,'' a set of core principles to ensure we provide 
        timely, effective, and compassionate support to victims of 
        sexual assault. The Commitment makes clear that all Volunteers 
        must be treated with dignity and respect, and that no one 
        deserves to be a victim of a sexual assault.
  <bullet> We implemented new ``Guidelines for Responding to Rape and 
        Sexual Assault'' that detail our victim-centered approach and 
        the specific procedures staff must follow in order to respond 
        promptly to an incident and provide proper support to a victim. 
        We have also trained staff on the new ``Guidelines,'' which 
        include the ``Commitment to Sexual Assault Victims.''
  <bullet> I hired a nationally recognized leader in victims' rights to 
        serve as the agency's first Victim Advocate. Victims of crime 
        can now turn to a skilled, capable Peace Corps staff member who 
        will make certain they receive the emotional, medical, legal, 
        and other support they need during and after their service.
  <bullet> We prepared new standardized and comprehensive training for 
        Volunteers on sexual assault awareness, risk reduction 
        strategies, Peace Corps reporting and response protocols, and 
        bystander intervention. This replaces and improves upon the 
        sexual assault training currently provided to Volunteers. We 
        are in the process of training overseas staff at all of our 
        posts on the new sexual assault curriculum at regional 
        ``training of trainer'' workshops, which will be complete by 
        the end of the year. The new curriculum was developed by the 
        agency's Sexual Assault Working Group, which includes returned 
        Peace Corps Volunteers and survivors of rape and sexual 
        assault, as well as staff with expertise in trauma response.
  <bullet> We signed a Memorandum of Understanding with the Rape, Abuse 
        and Incest National Network (RAINN), the Nation's largest 
        antisexual violence organization, to collaborate and share 
        resources on sexual assault prevention and response. RAINN has 
        been an invaluable partner for Peace Corps, and we are very 
        grateful for the advice and expertise they have provided us.
  <bullet> I created the Peace Corps Volunteer Sexual Assault Panel, 
        made up of outside experts and returned Volunteers who were 
        victims of sexual assault. The individual members of this Panel 
        provide advice and input on the Peace Corps' sexual assault 
        risk reduction and response strategies. The panel includes 
        representatives of RAINN, the Department of Defense's Sexual 
        Assault Prevention and Response Office, and the Department of 
        Justice's Office on Violence Against Women and Office for 
        Victims of Crime, among others.
  <bullet> We trained overseas staff in how to respond appropriately 
        when Volunteers bring allegations of wrongdoing to their 
        attention. The agency's policy, which dates to early 2009, 
        requires any Peace Corps staff member who receives or has 
        knowledge of a Volunteer allegation to treat the allegation 
        with the utmost discretion and confidentiality, to take 
        appropriate measures to ensure the Volunteer's safety, and to 
        ensure the allegation is given serious consideration including 
        referral to Peace Corps' Office of Inspector General when 
        appropriate. We are also training Volunteers on policies and 
        procedures for bringing confidential concerns to the attention 
        of appropriate staff.
  <bullet> We issued guidance for overseas staff on the specific 
        procedures to follow when Volunteers express concerns about 
        their safety, or in any other situation that may threaten the 
        well-being of Volunteers.
  <bullet> We have taken steps to improve the medical care we provide 
        Volunteers by giving our medical professionals at headquarters 
        overall responsibility for hiring, credentialing, and managing 
        Peace Corps Medical Officers (PCMOs) at every post and by 
        providing enhanced guidance to those PCMOs on how to handle 
        serious medical issues. New Regional Medical Officers were 
        hired to assist in the health care of Volunteers and a Quality 
        Improvement Council was established to monitor and report on 
        ongoing health care issues.

    These are just some of the many steps we have taken to better 
protect and support Volunteers.
             effective training and support for volunteers
    Peace Corps' success depends on our Volunteers, and we provide them 
with extensive information, training, and support to succeed. The 
process of educating prospective Volunteers about service in the Peace 
Corps begins long before they step off the plane in their country of 
service. The Peace Corps is completely open about the extent of crimes 
committed against Volunteers. We publish an annual ``Report of 
Volunteer Safety'' that includes detailed data regarding crimes against 
Volunteers, including rapes and sexual assaults, as well as trends for 
the past 10 years. Reports from the last 5 years are posted on the 
Peace Corps Web site.
    When we invite applicants to serve, we provide them with country-
specific information on health, safety, and security, and crime data to 
help them make an informed decision about whether Peace Corps service 
is right for them. After they accept the invitation, we give Volunteers 
an average of 10 weeks of in-country training before they begin their 
service, plus additional training throughout their 27-month commitment. 
This training covers technical, cross-cultural, health, and safety and 
security issues, plus instruction in any of the many languages we 
teach--over 120 in Africa alone. We also provide Volunteers with a 
monthly living allowance and comprehensive medical coverage throughout 
their service.
    Every Peace Corps post has a Peace Corps office and staff managed 
by a Country Director. The country staff includes the Safety and 
Security Coordinator, one or more medical professionals, and program 
managers and trainers. The country staff is responsible for, among 
other things, evaluating and selecting Volunteers' work and housing 
sites. In selecting sites for our Volunteers to live, we carefully 
consider factors such as access to medical care, proximity to other 
Volunteers, availability of communications and transportation, crime 
rates, and the potential for obtaining and maintaining the support of 
local authorities and the community at large.
    All posts receive regional and global support in health and safety 
operations. The Office of Safety and Security at headquarters oversees 
all Peace Corps security programs, both domestically and overseas. The 
office has more than two dozen staff, including 10 Peace Corps Safety 
and Security Officers who are based regionally around the world and who 
provide technical expertise, guidance, and training to Peace Corps 
posts. This office is headed by a security professional who has 27 
years of experience in security and law enforcement, both in the United 
States and overseas.
    In the event of an emergency, we immediately work with our 
leadership team in country to assess the situation and implement an 
effective solution; in the case of a medical emergency, the solution 
may entail local hospitalization or a medical evacuation to a regional 
site or back to the United States. Each post also has a country-
specific emergency action plan, tested on an annual basis, which 
instructs Volunteers on how to respond to events such as natural 
disasters or civil unrest.
                 support for victims of sexual assault
    The Peace Corps, as an agency and as, a family, is committed to 
providing the highest quality support and service to Volunteers who 
have been the victims of sexual violence or other crimes. From the 
moment a Volunteer first reports a rape or sexual assault we must be 
ready, willing, and able to provide compassionate and effective support 
and assistance. That is my commitment, and I believe that we have, as 
an agency, taken enormous strides in the past few years toward making 
it a reality, thanks to the productive conversations we have had with 
the broader Peace Corps community and outside experts. That work is 
still ongoing.
    As part of the Peace Corps' victim-centered approach we have put in 
place systems to allow victims to report sexual assaults and obtain 
prompt, compassionate assistance without fear of being judged. 
Dedicated specialists from the medical, mental health, security, and 
legal fields are available from Peace Corps headquarters to help 
Volunteers, as needed, with the response and recovery process.
    The Peace Corps' Counseling and Outreach Unit at headquarters is 
key to our victim-centered approach to responding to an emergency. 
Mental health counselors are available to all Volunteers for any of 
their needs, ranging from routine check-ins to coping with major 
traumatic events. The Counseling and Outreach Unit is trained to deal 
with emergencies and offers support to both victims and their families. 
The unit trains Peace Corps medical staff at posts to provide initial 
emotional support services to all Volunteers, including victims of 
sexual assault. Should a Volunteer need specialized care that is beyond 
the expertise of Peace Corps medical staff, the Peace Corps will 
provide access to medical professionals who can effectively support the 
Volunteer's needs. The Peace Corps Counseling and Outreach Unit also 
maintains a 24-hour hotline for families to get more information about 
natural disasters, like tsunamis and earthquakes, or other emergencies.
    In addition to providing support to victims, the Peace Corps makes 
every effort to protect Volunteers from sexual violence. Both staff and 
Volunteers participate in regular training on safety and security. This 
training covers a variety of topics related to sexual assault, and 
other risks that Volunteers may face while serving. The Peace Corps has 
a reporting system to track and analyze safety and security incidents 
and the data collected is used to instruct our operations and improve 
Volunteer and staff security.
    When an assault occurs, we work with our partners in host countries 
to bring perpetrators to justice. Seventy percent of the rapes, 
attempted rapes, and major sexual assaults of Peace Corps Volunteers 
that took place in 2009 and 2010 and were reported to local authorities 
resulted in arrests. Forty-six percent have resulted in convictions, 
and a number of other cases are scheduled for trial or still under 
investigation.
    In closing, I would like to express my gratitude to the Volunteers, 
past and present, who have served their country so selflessly. I am 
deeply grateful to them for their dedication and service, and I am 
committed to doing all I can as Director of the Peace Corps to protect 
and support them. I know that the members of the subcommittee share 
this goal and I look forward to working with you and others to ensure 
the continued success of this agency and its Volunteers.

    Senator Menendez. Thank you, Director, for your testimony.
    I appreciate the Peace Corps' support of Kate Puzey 
Volunteer Protection Act. I am happy to hear that Volunteer 
sexual assault survivors and leading organizations in the 
antisexual assault violence field were consulted as the Peace 
Corps reformed its assault prevention and response training 
procedures. I am encouraged to learn of the reforms that the 
Peace Corps is enacting to ensure that there is an enhanced, 
consistent quality and coordination across the agency.
    As I said to you privately, I wanted to say that to you 
publicly. I do want to just pursue additional questions with 
you since the committee has jurisdiction here, and we care very 
much about the Peace Corps and its future.
    It concerns me that it seems to have taken negative media 
attention for the Peace Corps to take a hard look at its 
operations and enact reforms. And you heard me ask our 
distinguished former colleagues earlier about the culture at 
the Peace Corps, and I am not talking about the Volunteers. I 
am talking about those who lead, not just yourself as the 
director, but everyone who leads underneath, that requires the 
media or Congress to step in and pursue reforms when they are 
necessary for the safety of Volunteers.
    I have heard from several Volunteers that in the past, 
management has abided by a culture of ``don't bother me'' with 
safety concerns or ``buckle up.'' I don't believe that that is 
the appropriate culture.
    So, I am wondering what you have done within the context of 
these reforms to ensure those underneath you--regional 
directors, country directors--understand that the input of 
Volunteers is not only to be heard, listened to, and responded 
to and, where appropriate, incorporated in the changes that 
will only strengthen the Peace Corps and its mission in the 
days ahead.
    Mr. Williams. Thank you, Mr. Chairman.
    Very, very important question, and I can understand your 
point of view. And thank you for our private conversation the 
other day when we talked about that issue.
    I want to say that we are doing everything that we can to 
make sure that the Peace Corps continues to have a 
compassionate, responsive culture to protect our Volunteers. 
And the way to do that, I believe, is, No. 1, you have to have 
the right policies in place. You then have to have the right 
procedures and practices in place that adhere to those 
policies, and then you need to train everybody at all levels to 
understand the role that they play in this organization.
    Because we want the Peace Corps to be the most responsive, 
forward-leaning human development agency in the 21st century. 
And so, the reforms that we have put in place have been aimed 
at doing that.
    We have trained our staff in terms of the guidelines for 
responding to rape and sexual assault. We have trained them on 
how to handle anyone who wants to come forward with 
confidential information that might be a whistleblower. We have 
trained them on the best way to respond to victims of sexual 
assault, whether it is a doctor or our country directors or our 
regional directors.
    We have worked at every level in the Peace Corps, from me, 
the deputy director, chief of staff, our regional directors, 
our country directors, and the staff that works with them in 
the 76 countries where we serve, to put in place very 
significant, comprehensive, standardized, broad-based training 
and to make sure that it is uniform worldwide, no matter where 
we might have people deployed.
    So I think we are doing everything that we can, and I am 
happy to walk through that in detail with you or your staff or 
any other member of the committee if you wish because I think 
you would be very pleased with the comprehensive nature, the 
standardized nature, and the intensity of the training.
    Senator Menendez. Now in that process, whistleblowers at a 
Volunteer level will be protected. What about whistleblowers at 
the agency? They don't necessarily have the same protection. 
What is your view of that?
    Mr. Williams. Well, as Federal employees, they, of course, 
enjoy the same rights and privileges of a whistleblower under 
Federal law. That certainly is the case. And I think, more 
importantly, we like to encourage openness and transparency to 
ensure that people will speak truth to authority, if you will.
    I want to know if there are issues that affect operations 
of the Peace Corps and also, more importantly, if they have 
anything to do with the safety and security of our Volunteers. 
So they certainly enjoy those rights and privileges.
    Senator Menendez. The 5-year rule, I have heard it referred 
to here earlier, and I know that it was a concept of 
reinvigorating the Peace Corps and a consistent transfusion of 
blood, so to speak. However, major organizations need expertise 
and institutional knowledge, so is there something to be said 
for revisiting the 5-year limitation to exempt certain 
positions in the leadership of the Peace Corps in order to 
ensure a certain degree of continuity, while the transformation 
and the lifeblood that the 5-year limit presents can remain a 
reality for nonessential staff?
    Mr. Williams. Senator, I think, first of all, in terms of 
the 5-year rule, we have benefited greatly over the 50 years of 
the Peace Corps because it has allowed fresh blood to come in, 
new Volunteers. And roughly 60 percent of my current staff are 
returned Peace Corps Volunteers. Most of them are young 
Volunteers who have served probably in the last 5 to 6, 7 
years.
    But at the same time, I think, as a modern organization, as 
you have pointed out, it can be a great constraint to not have 
the continuity of management if you have a 5-year rule. So I 
would welcome a review of the 5-year rule. I would love to join 
with you in that discussion and to take a look at what might be 
done. I think the time has come to look at that again.
    Senator Menendez. And last, Senator Udall has had proposals 
for some time of a buddy system, and I understand the potential 
opposing views to that. By the same token, there may be times, 
Senator Dodd referred to it, where the nature of the project, 
the difficulty of it, the location, may, in fact, call for 
clustering. Is the agency open to those views?
    Mr. Williams. Mr. Chairman, anything that contributes to 
the safety and security of the Volunteers we are totally open 
to discussing. And we do, at this point in time, often try to 
put Volunteers in clusters, either because of the technical 
sector they might be working in, from a programmatic 
standpoint, or because of the region.
    But at the same time, I am open to looking at any possible 
way of trying to provide a more safe and secure environment for 
the Volunteers. And if the buddy system is something that you 
think we should take a look at, we stand ready to look at that.
    Senator Menendez. I appreciate your openness, and our goal 
here is, is to have an even more robust, more productive 50 
years ahead. So we appreciate your willingness to be open-
minded about engaging with the committee and former Volunteers 
and others who have the same mission in mind.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Thank you for your service. Thanks for being here today.
    Mr. Williams. Thank you, Senator.
    Senator Rubio. I just want to put a brief comment on the 
record about something that we will talk about more in the 
future as we talk about reform to the Peace Corps. Obviously, 
we are all very concerned about the reports of violence 
committed against Peace Corps Volunteers, about recurring 
security problems.
    I am reminded of a case in Florida. It is actually a fellow 
University of Florida alumni from Fort Pierce, FL. His name was 
Tom Maresco, and he was serving as a science teacher. He was 
gunned down almost a year ago in September, and his family has 
raised some important concerns about the way that matter was 
handled and the aftermath and some concerns about the 
recruiting process as well.
    And I certainly wanted to bring that out in the hearing 
and, hopefully, have an opportunity to talk to you and your 
folks about how to deal with some of those issues moving 
forward.
    So I wanted to ask you basically the same questions that I 
asked the previous panel. And one is about what we are doing to 
try to channel the idealism and the collaborative spirit of 
this generation of young Americans?
    Two is what can we do, and I think some other things have 
been talked about already. You have even referred to them in 
your opening statement. But what we can do to really help some 
Americans who are nearing retirement but have a lot of talents?
    And three, how we can prioritize. Again, I think former 
Senator Dodd pointed it out that we really shouldn't be using 
it as a tool of short-term foreign policy. On the other hand, I 
do think there are places in the world that perhaps we have 
overlooked in the past or perhaps have overlooked us, where we 
now have an opportunity to engage along the lines of the Peace 
Corps, I think it serves a long-term foreign policy gain, but 
at the same time, I think it is true to the mission statement 
of the Peace Corps.
    So your general thoughts on a pretty broad topic?
    Mr. Williams. Thank you, Senator. And also thank you for 
the nice shout-out regarding University of Florida and the fact 
that the Gators are a big part of Peace Corps.
    And we would be very happy to talk to you and your staff 
privately about the Maresco case. It was a terrible blow to the 
Peace Corps family. Tom Maresco was an outstanding Volunteer, 
and we are doing everything we can to pursue that case, working 
with the State Department and the authorities in Lesotho. So we 
would be happy to talk to you and brief you fully on that.
    On the older Volunteers, I think we are about to see a 
growth of older Volunteers serving in the Peace Corps for a 
couple of reasons. First of all, I see more and more, as I 
travel around the United States, the parents of Peace Corps 
Volunteers wanting to have the same experience that they see 
that their children are enjoying when they visit them in the 
countries where we serve.
    Second, for those who have served in the Peace Corps 
previously, the baby boomers who are now about to retire again, 
we have this wonderful office called Peace Corps Response--it 
used to be the Crisis Corps, Senator Dodd referred to it--where 
we allow former Volunteers to serve on a short-term basis of 3 
to 12 months in a country where they have the language and the 
expertise. And now, of course, they have had a full career.
    And so, we are actively pursuing that. In a time of tight 
budget constraints, I believe that we are going to be able to 
grow because we can use Peace Corps Response as a way to 
attract older Americans who have that experience and can still 
make a difference.
    The other thing is that not a month goes by, Senator, when 
I don't receive an ambassador from a country or one of our 
American ambassadors serving overseas, and they ask me one of 
three questions. They ask me, ``When can you return to my 
country? How can you expand in the country? Or can you come for 
the first time?''
    We have a long list of countries that have invited us to 
come. No matter what budget level we have, we would never 
fulfill that demand, but there is ample opportunity to do that. 
And I know there are many hundreds of thousands of young 
Americans who want to serve.
    And so, if you look at the young Americans and their 
interest in serving, as you so aptly described in your opening 
statement, and if you look at the baby boomers and the older 
Americans who are prepared to serve, we have a tremendous 
cadre, a great pool of Americans who are prepared to make a 
difference.
    Senator Menendez. Thank you, Director, for your testimony. 
We look forward to continuing to work with you in the days 
ahead, and we appreciate your service.
    Mr. Williams. Thank you, Mr. Chairman, for this opportunity 
to talk to you and to Ranking Member Rubio. I appreciate this 
committee's longstanding support of the Peace Corps, and we 
will work with you on any matters you deem important.
    Senator Menendez. Thank you.
    Mr. Williams. Thank you.
    Senator Menendez. Let me call up our final panel. Kathy 
Buller is the inspector general of the Peace Corps. She began 
her civil service career with USAID, where she held several 
positions before becoming deputy legal counsel and assistant 
inspector general.
    She has also served as chief counsel to the inspector 
general for the Social Security Administration, cochair of the 
Inspections and Evaluation Committee of the Council of 
Inspectors General on Integrity and Efficiency, was appointed 
by the Government Accountability Office Advisory Council on 
Government Auditing Standards. We welcome her testimony here 
today.
    Kevin F.F. Quigley was a Peace Corps Volunteer in Thailand 
from 1976 to 1979, is currently the president of the National 
Peace Corps Association, the Nation's leading nonprofit 
organization supporting Returned Peace Corps Volunteers and the 
Peace Corps community. He has held senior positions in civil 
society and Government as well as various research 
institutions, including as vice chairman of USAID's Advisory 
Committee on Voluntary Foreign Assistance and legislative 
director to former Senator John Heinz.
    Thank you for joining us.
    And Senator Rubio has floor obligations. So we appreciate 
him being with us up to this point.
    Liz Odongo was a Peace Corps Volunteer in Guyana from 2001 
to 2002. Her experience as a victim of sexual assault while 
serving led her to cofound a nonprofit that works to end 
violence against women. And she is currently the director of 
training and outreach at the D.C. Coalition Against Domestic 
Violence.
    Thank you for sharing your story and your experience.
    With that, please deliver your testimony in the order I 
introduced you. At this point, I would like to request that the 
testimony of Karestan Koenen be entered in the record. Without 
objection, so ordered.

    [Editor's note.--The statement mentioned above was not 
available at the time this hearing went to press.]

    Senator Menendez. She was scheduled to testify on the 
panel, but due to personal circumstances, she was unable to 
join us.
    We are going to include your full statements in the record. 
We urge you to synthesize your statement in about 5 minutes.
    And with that, Ms. Buller, we call upon you first.

 STATEMENT OF KATHY A. BULLER, PEACE CORPS INSPECTOR GENERAL, 
        OFFICE OF THE INSPECTOR GENERAL, WASHINGTON, DC

    Ms. Buller. Chairman Menendez and Ranking Member Rubio, 
distinguished members of the committee, I thank you for 
inviting me to appear before you today and allowing me to 
summarize my prepared statement.
    As the inspector general for the Peace Corps, I am charged 
with providing independent oversight of the agency. My tenure 
began in 2008, and since then, my office has performed audits 
and evaluations aimed at identifying key challenges the Peace 
Corps faces in improving its efficiency and effectiveness 
throughout the world.
    The Peace Corps is a highly decentralized agency, operating 
in 70 countries. Headquarters staff primarily rely on country 
directors and their staff to run programs in the field with 
limited guidance and oversight.
    The decentralized nature of the agency necessitates 
effective business processes, including clear lines of 
communication, well-established policies and procedures, 
adequate oversight, and modern systems to inform and support 
them. Our work demonstrates that one or more of these elements 
are not always present and that the agency is challenged in 
providing consistent Volunteer support and strong management 
oversight.
    For example, our 2010 audit of Volunteer safety and 
security found that although the Office of Safety and Security 
was intended to provide management of all agency security and 
safety functions, it served as a consultative office, not an 
oversight office and relied on overseas posts to request its 
assistance and implement its suggestions.
    Without a clear management structure, no office accepted 
complete ownership of the safety and security program, and the 
program lacked most of the elements that I just described. The 
agency has taken corrective action on 25 of the 28 
recommendations that we made as a result of that audit.
    In the area of Volunteer health, a 2010 OIG assessment of 
Volunteer medical care in Morocco found that, similar to the 
agency's safety and security program, the medical program 
lacked adequate oversight. The report found limited 
participation of headquarters medical staff in the hiring and 
supervision of medical officers. Instead, those functions were 
performed by the country directors.
    We identified agencywide shortcomings in the oversight of 
medical units, quality assurance, and the scope of practice. 
The agency concurred with all of our recommendations and took 
immediate action to remediate them. However, the agency has 
delayed some planned initiatives for increased oversight and 
clinical reviews of Volunteer medical charts because of 
resource issues.
    My office is currently conducting a review of the agency's 
guidelines for responding to rape and major sexual assault, 
prompted by the concerns raised by Volunteer survivors of 
sexual assault. Our work indicates that before the agency 
issued the February 2011 guidelines and protocols on responding 
to sexual assault, the efficacy of the agency's response to 
incidents largely depended on the action of country directors.
    I expect to be able to fully address this issue with you 
after we issue our preliminary report next month.
    In 2010, we conducted a followup evaluation of the 
Volunteer Delivery System, known as VDS, the agency's most 
important business process for meeting its recruitment and 
placement needs. The report concluded that the agency failed to 
implement most of the OIG recommendations from a 2003 report 
and that many of the same weaknesses in VDS remained.
    Among the most critical problems were inefficient business 
processes and inadequate information technology. Many systems 
are paper based, and the system cannot easily match applicants' 
skills with host country needs. Our report also found that the 
agency does not have a formalized definition of Volunteer 
quality and does not systematically track Volunteer quality 
levels. The agency is currently implementing a new Volunteer 
lifecycle management system that they anticipate will address 
many of our recommendations. We continue to encounter problems 
obtaining accurate and reliable data for important business 
processes. For example, access to reliable data on employee 
retention and turnover, cost, and cumulative impact of 
Volunteer medical accommodations, and the acceptance rates for 
Volunteer applicants has been challenging.
    Moreover, until FY 2010, the agency lacked a central 
database to capture unfunded resource requests submitted by its 
component offices to management for review and approval. Access 
to reliable data informs and guides program budgeting, 
strategic planning, program development, and management.
    My office is currently engaged in an evaluation of the 
impact of the 5-year employment cap and an audit of the agency 
budget formulation process. Both reviews are ongoing, and 
preliminary reports have not yet been issued. But the issues 
they raise will likely pose challenges and opportunities for 
agency reform efforts.
    In concluding, Mr. Chairman, the Peace Corps faces a range 
of management and performance challenges. The agency is making 
progress in confronting those challenges and is working to 
streamline operations and improve business processes critical 
to Volunteer support. However, the agency must continue to work 
to ensure that its business processes reflect today's Peace 
Corps, not the agency that was started 50 years ago.
    [The prepared statement of Ms. Buller follows:]

                 Prepared Statement of Kathy A. Buller

    Chairman Menendez, Ranking Member Rubio, and distinguished members 
of the committee, I thank you for inviting me to appear before you 
today. My testimony will outline the management challenges facing the 
Peace Corps as it celebrates its 50th anniversary this year, including 
findings and recommendations that my office has made to support Peace 
Corps reform efforts, the agency's recent progress, and my perspectives 
on the challenges ahead. I hope my testimony will support your efforts 
to ensure the Peace Corps remains a relevant, vibrant, and effective 
agency.
    The Peace Corps Office of Inspector General (OIG) was established 
in 1989 after Congress amended the Inspector General Act of 1978 to 
include smaller agencies. I became the Inspector General (IG) on May 
25, 2008, and in my role as the IG, I direct a small office of 21 
employees comprised of auditors, evaluators, criminal investigators, 
legal counsel and support staff. I am fortunate to work with 
individuals who have a broad range of skills and experience, including 
seven returned Peace Corps Volunteers, and three former Government 
Accountability Office (GAO) employees. All of them have extensive 
private and/or public sector experience. Last year, our criminal 
investigators were granted full statutory law enforcement powers by the 
Attorney General including the authority to seek and execute search and 
arrest warrants, seize evidence, make arrests without a warrant while 
engaged in official duties, and carry firearms.
    Our mission is to prevent and detect fraud, waste, abuse, and other 
wrongdoing in agency operations and programs as well as promote 
economy, efficiency, and effectiveness. My office serves as an 
independent oversight entity and my duty is to keep the Congress and 
the Director fully and currently informed about problems within the 
Peace Corps, the need for corrective action, and the progress being 
made to address our recommendations.
                      the peace corps at its best
    In its 2010 ``Comprehensive Agency Assessment,'' a report to the 
Committee on Appropriations, the agency identified four critical 
elements that define the success of its programs over the past 50 
years, which correlate closely to our audit and evaluation findings. 
These four elements are discussed below:

  <bullet> The Peace Corps' niche is that our Volunteers live and work 
        for extended periods in communities where other service 
        organizations tend not to go and stay. Volunteers learn the 
        local language and culture, and form respectful relationships 
        with their hosts. In our 2010 evaluation of Peace Corps/
        Cambodia for example, we reported that as a newly opened post, 
        program staff had successfully identified a niche--teaching 
        English at the secondary school level in rural communities, 
        which other nongovernmental organizations (NGOs) or service 
        organizations were not addressing. In PC/Ethiopia, our program 
        evaluation found that Volunteers support HIV/AIDS programs in 
        communities where few other NGOs operate.
  <bullet> The Peace Corps thrives when it partners with and 
        compliments the efforts of others. In the field, Volunteers 
        support locally identified development priorities and 
        coordinate their work with host government agencies, local, 
        national or international organizations, and the host 
        community. In a 2007 OIG study of effective country programs we 
        documented best practices at nine high-performing posts: 
        Volunteer work assignments were clear, host country 
        counterparts were identified, and the host communities and 
        organizations understood their roles and the role of the 
        Volunteer.
  <bullet> The agency is successful when it is able to provide the 
        Volunteer meaningful work. This has been well understood in 
        principle since the earliest days of Peace Corps, and we 
        continue to focus our evaluations on how effectively our 
        overseas programs ensure that Volunteers have meaningful work 
        to do at their sites. In our 2011 evaluations of PC/Swaziland 
        and PC/Romania we found well-developed project plans and solid 
        processes for identifying and preparing Volunteer work sites.
  <bullet> Fundamental to Peace Corps' success is the commitment to 
        service displayed by Volunteers who are willing to serve, often 
        under very challenging conditions. The agency has a new 
        training approach to support Volunteers called, ``Focus In/
        Train Up'' intended to zero in on programming and training in 
        areas where the Peace Corps can have maximum impact.

    In addition to these elements our audits and program evaluations 
have found that these high performing posts have systematized 
processes, clear policies, and procedures. In our 2011 audit of PC/
Ukraine, currently the agency's largest program, we found solid 
administrative systems in place and a clear organizational structure. 
The post's size allowed for economies of scale and specialized support 
for financial and administrative programs, such as vehicle management, 
contracting, and grants programs. Unfortunately consistent application 
of policies and procedures remains a challenge for the Peace Corps.
                 the peace corps' management challenges
    The Peace Corps, like other international organizations, faces a 
range of challenges--everything from safety and security incidents to 
currency fluctuations that impact posts' operating funds. Volunteers 
serve in 76 countries and operate at the grassroots level, usually in 
rural communities, often in remote areas far from the capital city and 
the Peace Corps office. Volunteers live and work with people of diverse 
cultural backgrounds and languages, and their projects and assignments 
are carried out with host partner agencies, without direct supervision 
by Peace Corps program managers. In short, the model of voluntarism 
that makes the Peace Corps such a unique and compelling experience can 
at the same time makes the agency's efforts to support and ensure the 
safety of Volunteers a challenge.
    The Peace Corps operates 70 overseas posts, spread throughout five 
continents. Each post is managed by a country director (CD). The Peace 
Corps is a highly decentralized agency with headquarters staff 
primarily relying on the CDs and their staff to run the programs in the 
field. This model is only successful when there are clear lines of 
communication, well-established policies and procedures, and adequate 
oversight functions. Our audit, evaluations, and investigations 
demonstrate that one or more of these key elements are not always 
present in agency programs and operations.
    We have found that the agency is challenged in providing strong 
management oversight and accountability to ensure the agency's mission 
is carried out consistently throughout the world. The agency is 
constrained by limited resources, inadequate planning, and shifting 
priorities. President Obama, like his predecessor, committed to 
increasing the number of Volunteers in the field and at the end of this 
fiscal year, the number of Volunteers serving surpassed 9,100, the most 
since 1971, a 40-year high. Regardless of prospects for growth, 
currently serving Volunteers must be effectively supported.
    During my tenure, OIG's oversight work has been focused on two 
broad issues: critical Volunteer support and agency business processes. 
Critical Volunteer support systems such as safety and security and 
health care form the pillars of the Volunteer program. Without 
efficient and effective support services Volunteers may be put in 
jeopardy and precious resources could be misdirected. Peace Corps 
business processes, broadly defined, are the tools and systems the 
agency utilizes to accomplish its mission. Some of the key management 
challenges my office has identified follow.
A. Critical Volunteer Support
    Volunteer service is central to the mission of the Peace Corps. The 
success of the Volunteer depends in part on how effectively the Peace 
Corps supports Volunteer health, safety, and security needs. In recent 
years, my office has conducted two major reviews of the Volunteer 
safety and security program and several reviews of Volunteer health and 
safety.\1\ Every time we conduct a post audit or evaluation we focus on 
these Volunteer support areas. This year we also began a review of how 
the agency responds to incidents of Volunteer rape and sexual assaults. 
The testimony of these survivors during the Peace Corps hearing before 
the House Foreign Affairs Committee in May and our own work suggest 
that responding to incidents of rape and sexual assaults requires a 
well-conceived and comprehensive Volunteer safety and security program, 
as well as providing necessary compassionate care and support to 
Volunteer survivors of these crimes.
---------------------------------------------------------------------------
    \1\ The OIG's 2008 evaluation focused on the agency's 
implementation of five key tenets of its safety and security program--
responding to crimes and reporting and analyzing crime statistics; 
monitoring, assessing, and disseminating information on the security 
environment; providing safety and security training to Volunteers; 
developing, monitoring, and inspecting Volunteer sites; and planning 
for emergencies. The 2010 OIG audit of safety and security focused on 
the organization and implementation of the agency's safety and security 
function.
---------------------------------------------------------------------------
            1. Volunteer Safety and Security
    The Peace Corps Office of Safety and Security was created in 
response to a 2002 GAO report that identified weaknesses in the 
agency's safety and security program. Our 2010 audit of Volunteer 
safety and security found that, although the Peace Corps established 
the Office of Safety and Security to provide oversight and management 
of all agency safety and security, the office has acted in a 
consultative fashion, not as an oversight office. It has relied on 
Peace Corps' overseas posts to request its assistance and implement its 
suggestions. Our review found that without a clear management 
structure, no office accepted complete ownership of the safety and 
security program, and the agency's security program lacked essential 
elements. As a result, Volunteers were placed at greater risk because 
the agency did not ensure posts fully implemented required safety and 
security policies.
    In a review of data available since 2004, OIG has found that 44 
percent of posts we audited were not in compliance with the requirement 
to obtain a background check of post staff. After the policy was 
revised in September 2009 to include short-term contractors, OIG found 
that 73 percent of posts audited were not compliant. Our 2008 
evaluation of Volunteer safety and security revealed that 40 percent of 
Volunteers' houses did not meet the posts' own criteria for safe 
housing. Also, 37 percent of the Volunteer Site Locator Forms did not 
contain sufficient information to locate Volunteers' sites in emergency 
situations.
    Our 2010 audit also found deficiencies in the qualifications and 
training of overseas safety and security personnel. Peace Corps 
overseas safety and security staff were not consistently qualified to 
support Volunteers. The agency had not defined the skills and 
experience needed for security positions, nor provided consistent 
training or development opportunities to match the position 
responsibilities. Our audit reported the agency had not tracked and 
ensured corrective action on safety and security recommendations made 
to overseas posts.
    Further, dealing with serious safety and security incidents against 
Volunteers--such as murder, rape, sexual assault, kidnapping, 
terrorism, or finding missing Volunteers--requires strong coordination 
between the Peace Corps and the Department of State. In our 2010 audit 
we recommended that the Peace Corps establish a memorandum of 
understanding with the Department of State that would define each 
agency's roles and responsibilities for Volunteer safety and security 
as a critical step in improving the agency's capacity to effectively 
respond to security incidents. This recommendation remains open pending 
the MOU being finalized.
    To date the agency has provided sufficient information to close 25 
of 28 recommendations from our 2010 safety and security audit and 18 of 
20 recommendations from our 2008 safety and security evaluation. We 
continue to collaborate closely with agency management by providing 
needed clarifications and comments to its proposed actions as well as 
general advice with the aim of closing all remaining open safety and 
security recommendations. Taking the necessary corrective action to 
response to our recommendations is an important step to improving its 
Volunteer safety and security program but the agency will need to 
continuously monitor the program to ensure the changes take hold and 
new issues that surface receive timely and effective resolution. I 
maintain that the successful implementation of these recommendations 
depends in large part on whether the Office of Safety and Security 
functions as the management and oversight office it was intended to be, 
rather than as a consultative office for overseas posts that responds 
to requests for assistance and offers suggestions. In late FY12, we 
plan to conduct a followup audit on the program's effectiveness and the 
implementation of OIG recommendations.
            2. Medical Care of Volunteers
    The provision of high quality medical care is a critical Volunteer 
support area
and essential agency function. Our post audits and evaluations review 
and assess whether Volunteer health care needs are being met. 
Additionally, our office also responds to agency special requests for 
advice and assistance in this area. Following the death of a Volunteer 
in Morocco, the Peace Corps Director requested that OIG conduct an 
assessment of the provision of health services to Volunteers in 
Morocco. The report, issued in 2010, determined that the way in which 
PC/Morocco organized its medical services and provided health care to 
Volunteers had an impact on the deceased Volunteer's medical care.
    The report had agencywide implications because it identified 
weaknesses in core agencywide medical operations such as the hiring of 
Peace Corps Medical Officers (PCMOs) and their scope of practice, 
oversight of health units, and quality assurance.\2\ It determined that 
there was minimal clinical oversight of the Morocco PCMOs by the 
agency, which is responsible for developing and managing the Volunteer 
health care program. The report also concluded that the way the agency 
measured and monitored the quality of health care services provided to 
Morocco Volunteers was insufficient. The Peace Corps Director concurred 
with all the recommendations and made a firm commitment to implement 
them not only in PC/Morocco, but throughout all of Peace Corps' posts 
as appropriate.
---------------------------------------------------------------------------
    \2\ PCMOs are staffed at each Peace Corps post to support 
Volunteers' health needs.
---------------------------------------------------------------------------
    In response to our report, the agency stated that is was going to 
take substantial measures to increase its oversight of medical care 
provided to PC/Morocco and Volunteers throughout the world. The agency 
took the following actions:

  <bullet> Realigned the PCMOs' reporting chain to ensure qualified 
        medical staff, not only the CD, oversee the medical support 
        provided to Volunteers.
  <bullet> Adopted a ``Quality Improvement Plan'' for enhancing 
        clinical oversight and medical care of all Volunteers.
  <bullet> Drafted a policy to ensure effective transfer of patient 
        information between PC/Morocco medical unit personnel.
  <bullet> Issued a series of technical guidelines for PCMOs intended 
        to raise the standards of care for Volunteers.
  <bullet> Implemented a more rigorous process for hiring and 
        credentialing of overseas medical staff.
  <bullet> Reformed the agency's scope of practice policies defining 
        the levels of work to be performed by PCMOs, based on their 
        credentials and experience.
  <bullet> Defined situations when the agency must be notified of a 
        significant illness of a Volunteer. An initiative to develop a 
        process for the immediate investigation of medical events is 
        underway.

    Nonetheless, certain planned initiatives have been delayed or not 
implemented due to resource constraints. For instance:

  <bullet> The agency did not fully increase the number of medical 
        staff required at headquarters to perform oversight and quality 
        assurance functions in FY11.
  <bullet> The agency failed to procure systems that could provide more 
        effective medical screening or better track pharmaceutical 
        supply inventory.
  <bullet> A medical chart review process intended to increase clinical 
        oversight was made more rigorous. However, only a small 
        fraction of charts are being submitted by the posts and 
        reviewed by clinical staff at headquarters.
  <bullet> Implementation of an electronic health record system, which 
        would facilitate clinical oversight and case management by 
        headquarters clinical staff and provide data to inform 
        management decisions and policies, has not occurred due to 
        resource constraints. However, the agency is looking for 
        feasible options.
            3. Sexual Assaults
    In response to a 20/20 broadcast earlier this year and a previous 
congressional hearing, OIG has initiated a review of the agency's 
guidelines for responding to rape and major sexual assault, which is 
ongoing. For the purpose of this review, sexual assaults include 
incidents in three categories: rape (including attempted rape), major 
sexual assault, and other sexual assault. Our review is assessing:

  <bullet> Agency guidelines and protocols for responding to a 
        Volunteer sexual assault, including the support provided to 
        Volunteer survivors.
  <bullet> Staff training, roles, and responsibilities for responding 
        to Volunteer sexual assault.
  <bullet> Best practices in responding to sexual assaults that would 
        improve the way Peace Corps responds to Volunteer sexual 
        assaults and supports victims.

    The agency has initiated the following:

  <bullet> Hired a victim's advocate, who serves as the central point 
        of contact to coordinate support of Volunteer survivors. The 
        victim's advocate functions as a liaison between the Volunteer, 
        the post, and other offices within the Peace Corps responsible 
        for Volunteer sexual assault incident management.
  <bullet> Issued new staff guidelines for responding to rape and 
        sexual assault in February 2011. The guidelines define and 
        clarify staff roles and responsibilities and the required steps 
        to respond to an incident to ensure that a coordinated, 
        compassionate response is provided to every Volunteer survivor.
  <bullet> Provided standardized training on new guidelines for Peace 
        Corps staff involved in supporting sexual assault victims in 
        February of 2011.
  <bullet> Provided response training on rape and sexual assault to 
        current PCMOs in continuing education sessions.

    We have conducted field work and interviewed staff responsible for 
the response and care of rape and sexual assault victims worldwide, 
including at eight Peace Corps posts. We will complete field work in 
three additional posts as part of this review and hope to issue a 
preliminary report at the end of next month.
    And in this context Mr. Chairman, I would be remiss if I did not 
mention the Kate Puzey Peace Corps Volunteer Protection Act of 2011, 
which the Senate adopted by unanimous consent. The legislation 
institutionalizes comprehensive sexual assault risk reduction training 
within the Peace Corps, and supports our office's ongoing efforts to 
reach out to Volunteers early in their service so they understand how 
to report instances of wrongdoing or misconduct. We support a strong 
confidentiality policy, including authorizing penalties in cases of 
inappropriate disclosure--for example disciplinary action and 
ineligibility for reemployment with the agency.
    We also appreciate your efforts to strengthen the independence of 
the Peace Corps Office of Inspector General. Our credibility is 
enhanced when OIG is free from any perception of partiality.
B. The Need for Enhanced Business Processes and Modernization
    As part of the comprehensive assessment process the agency 
identified strengthening ``. . . the Peace Corps' management and 
operations by using modern technology, innovative approaches, and 
improved business processes . . .'' as one of its six key strategies 
for guiding the agency in the coming decade. In our statement on the 
Peace Corps' Management and Performance Challenges published in the 
agency's 2010 ``Performance and Accountability Report'' (PAR) we 
identified the need to improve the agency's business processes in order 
to accommodate growth and expansion. While Volunteer growth has not 
matched expectations, there is still a need for the agency to modernize 
and enhance its business tools and processes.
    Throughout our audit, evaluation, and investigative work we have 
noted an absence of updated, clear policies and procedures and a lack 
of consistency in how the agency functions. Frequent turnover of the 
workforce, a result of the ``Five-year Rule'' (FYR) that limits staff 
appointments to 5 years, in most cases, contributes to a lack of 
institutional knowledge and exacerbates other management challenges, 
such as putting in place more modern administrative processes. In 
addition to the challenges already outlined, below are some of the more 
significant areas that OIG has identified.
            1. The Volunteer Delivery System
    The Volunteer Delivery System (VDS) is the agency's most important 
process for meeting its Volunteer recruitment and placement needs. The 
VDS is the continuous cycle of activities intended to enable the Peace 
Corps to attain its goals by delivering qualified and suitable 
Volunteers to interested countries. The VDS cycle begins when overseas 
Peace Corps staff, together with host country partners, decides on the 
number and qualifications of Volunteers that are needed to fulfill 
project goals. This information forms the basis of the agency's annual 
Volunteer trainee input goals, including the total number of Volunteers 
needed, the specific technical and language skills needed, and when 
Volunteers are expected to begin service. After the trainee requests 
are received, assessed, and approved, the agency aligns its recruitment 
and applicant process to recruit and screen applicants, and invite them 
to Volunteer service. Without significant modernization and 
improvements to the VDS, the agency will risk not meeting its 
performance and strategic goals.
    In 2010 our office evaluated the VDS. The evaluation served as a 
followup to a 2003 OIG program evaluation report that identified 
several weaknesses in the VDS, including the areas of leadership and 
organizational change; information flow; information technology; 
medical screening; customer service; and staffing and staff training. 
The 2003 evaluation report determined that VDS lacked effective 
business processes and was poorly supported by technology. Many systems 
were paper-based or done manually, and the system could not easily 
match applicants' skills with host country needs. It was also difficult 
to process applicants with complex medical histories. The 2003 report 
included 24 recommendations and our followup report, issued in December 
2010, found that most of the corrective actions agreed to by the agency 
in response to the 2003 report were either not initiated or were not 
fully carried out, and many of the same issues remained. As a result 
the 2010 evaluation report made 13 recommendations in an attempt to 
address these longstanding concerns.
    In addition to following up on the progress the Peace Corps has 
made since the 2003 report, the evaluation also assessed whether the 
agency was positioned to support growth and expansion of Volunteers 
serving without decreasing Volunteer quality. We were unable to 
conclusively determine whether the agency is maintaining Volunteer 
quality while increasing the number of Volunteers in the field. 
Notably, the agency does not have a formalized definition of Volunteer 
quality and does not systematically track Volunteer quality levels. We 
also found that the agency does not accurately track and measure its 
ability to recruit and place Volunteers whose skills meet host country 
needs and, because of difficulty in recruiting applicants with 
technical experience, posts were encouraged to request lower-skilled 
trainees.
    The agency is currently implementing a new Volunteer lifecycle 
management system under the name Database of Volunteer Experience or 
``DOVE.'' The agency anticipates that this new information technology 
system will drive the Volunteer delivery process and help the agency 
better match posts' program needs with Volunteer applicant profiles, 
resulting in better Volunteer placement. The new system will also 
provide the agency with enhanced reporting capabilities that will 
provide important information to managers and agency leadership. The 
new system has the capability to accommodate evolving agency needs and 
priorities. Through the implementation of DOVE, the agency will be able 
to eliminate some of the inefficient paper processes and address some 
of the long-standing recommendations made by CHG. The agency's 
commitment to implementing DOVE, modernizing the VDS, and implementing 
other long-term projects that require resources will determine whether 
it can achieve its goals. Also critical is the agency's commitment to 
maintaining Volunteer quality and putting in place processes and data 
measurement systems to ensure Peace Corps is selecting and placing 
Volunteers who can help the people of interested countries in meeting 
their need for trained men and women.
            2. Accessibility of Data Related to Peace Corps Operations
    In conducting audits, evaluations, and investigations, OIG 
continues to encounter problems obtaining significant data related to 
Peace Corps' key business processes. For example OIG has had difficulty 
accessing summary data related to employee retention and turnover, cost 
and cumulative impact of Volunteer medical accommodations, acceptance 
rate for Volunteer applicants and the number of Volunteer applicants 
who do not fully match the skills requested by host countries. Access 
to timely and accurate data related to headquarters and international 
operations is essential to establishing efficient agency business 
processes and systems. This data should inform management's strategic 
and performance planning; program development and management strategy; 
and budget formulation and execution. Further the availability of 
accurate and complete data allows Peace Corps management to assess 
program effectiveness, efficiency, and ways to eliminate waste.
    We found that some of the databases and IT systems used by the 
agency do not effectively capture and distribute useful data to 
decisionmakers. Gathering data often requires access to numerous 
systems and databases and staff must manually assemble it to develop 
needed reports and information. For example, up until late FY 2010, the 
Peace Corps did not have a central database to capture formal unfunded 
resource requests submitted by its component offices to management for 
review and approval. In addition, prior year data was not readily 
available for review and analysis, and as a result any data assembled 
may be potentially incomplete or inaccurate, which could impact 
important business decisions.
    In addition, document management systems and certain key functions, 
including travel authorizations, vouchering, contract management, and 
leave requests, remain largely paper-based. Streamlining and 
integrating these functions through an IT solution would reduce data 
entry error, improve efficiency, reduce paper dependency, and provide 
greater storage and retrieval capabilities. These reforms would improve 
the agency's efficiency and effectiveness and support allow managers to 
make more informed choices.
            3. The Protection of Personally Identifiable Information
    The Peace Corps routinely receives, processes, and maintains 
significant amounts of Personally Identifiable Information (PII) \3\, 
and OIG continues to identify problems with the agency's ability to 
protect this information. Since FY 2009 we identified the protection of 
PII as a management challenge that requires enhanced management and 
internal controls. In June 2009, this matter came to the forefront, as 
OIG investigated and issued two reports related to the breach of more 
than 495 medical files that included applicant names, Social Security 
numbers, addresses, birthdates, dental records, lab reports, and 
medical questionnaires. In October 2010 the agency has identified nine 
breaches that compromised over 180 individuals' information. 
Unfortunately, the trend in human errors that are usually attributed to 
the cause of these breaches continues to persist
---------------------------------------------------------------------------
    \3\ PII includes information that can be used to distinguish or 
trace an individual's identity, such as name, Social Security number, 
or biometric records. Such information can be used to link to other 
data such as bank accounts and other financial or personal information 
that can assist perpetrators in committing crimes associated with 
identity theft.
---------------------------------------------------------------------------
    The agency has stated that the implementation of DOVE and an 
electronic health records system are measures that would significantly 
reduce the risk of PII security breaches. However, until these proposed 
system improvements are made protection of PII will continue to be a 
management challenge. As previously mentioned, the agency's plan to 
implement an electronic health record system has not occurred due to 
resource constraints.
C. Ongoing Related Reviews
    Currently, we are engaged in two important reviews which impact 
Peace Corps management challenges and support reform and enhancement of 
key agency business processes and tools.
            1. Five-Year Rule
    In February of 2011 we began an evaluation, which is ongoing, of 
the impact of the FYR on Peace Corps operations. The FYR became law in 
1965\4\ when an amendment to the Peace Corps Act brought all employees, 
foreign and domestic, under the same personnel system and limited all 
direct hire appointments to a maximum of 5 years. In passing the FYR 
the Congress intended to ``permit a constant inflow of new blood and 
ideas.\5\'' Congress amended the FYR in 1985 to allow for a third tour 
of 2\1/2\ years and again in 2003 to exempt certain safety and security 
personnel from the rule. Because the FYR has an impact on Peace Corps 
management challenges I would like to share some preliminary 
observations:
---------------------------------------------------------------------------
    \4\ To Amend Further the Peace Corps Act, Public Law 89-134, 
section 2054, 75 Stat. 612 (Aug. 24, 1965).
    \5\ Congressional Record, 89th Cong., 2d. sess., 1965. 111, pt. 
2768

  <bullet> Over 50 percent of the agency's American staff from 2000 to 
        2010 were Returned Peace Corps Volunteers, including almost 80 
        percent of overseas staff. However, the average time between 
        Volunteer service and staff membership is 8 years.
  <bullet> Short staff tenures at the Peace Corps (2.5 years in 2010) 
        are more than 3 times shorter than the rest of the Federal 
        Government (7.9 years) and even shorter than the median tenure 
        of private sector employees (4 years).
  <bullet> The agency's annual turnover rate has exceeded 20 percent 
        historically and is more than three times the governmentwide 
        average (5.9 percent).

    Our final report will include data on staff tenure and attrition 
rates for each Peace Corps office covering the past decade. We intend 
to issue a preliminary report by the end of next month.
            Agency Budget Formulation
    We are currently conducting an audit of the agency's budget 
process. We expect to issue a preliminary report in the coming weeks. 
Our findings will focus on the following areas:

  <bullet> Government Performance Reporting Act (GPRA): GPRA requires 
        that federal agencies link performance reporting and the 
        budget. Such linkage is essential to using performance 
        reporting data as an effective tool for justifying and 
        prioritizing budget decisions, allocating resources, and 
        formulating future budget estimates.
  <bullet> Unfunded Resource Requests: The processes for these requests 
        and budget reduction decisions need to be sufficiently 
        transparent and a clear line of communication regarding 
        budgeting decisions needs to be in place so that the highest 
        priorities are adequately funded and that scarce agency 
        resources are put to the best use.
  <bullet> Documenting the Internal Control Structure over the Budget 
        Process: Without an adequately documented internal control 
        structure over the budget process it is not possible to confirm 
        the level of risk assessed by management, or to determine if 
        proper internal controls are established and operating 
        effectively.
                               conclusion
    The Peace Corps faces a range of management and performance 
challenges as it looks forward to another 50 years. Today, the Peace 
Corps remains unique in its mission, but unlike 1961 there are other 
private and public sector entities working internationally. Peace 
Corps' niche is still relevant, but in this difficult budget 
environment its future success will depend on its ability to concretely 
demonstrate its value and manage operations more effectively and 
efficiently.
    The agency is making progress in confronting some of its challenges 
and has worked to streamline operations and improve the technology that 
supports key business processes and critical Volunteers support areas. 
The agency is taking important steps to modernize and become more 
efficient. The implementation of DOVE promises to substantially improve 
the ability of the agency to match posts' program needs with Volunteer 
applicant profiles, resulting in better Volunteer placement. Increased 
management oversight over Volunteer safety and security and Volunteer 
medical care will support greater consistency of quality over these 
critical support services. The agency must continue to evolve and 
ensure its business processes reflect the activities of today's Peace 
Corps, not the agency that was founded 50 years ago.

    Senator Menendez. Thank you very much.
    Dr. Quigley.

  STATEMENT OF KEVIN F.F. QUIGLEY, PH.D., PRESIDENT, NATIONAL 
            PEACE CORPS ASSOCIATION, WASHINGTON, DC

    Dr. Quigley. Good morning, Mr. Chairman.
    Chairman Menendez, I am honored to have this opportunity to 
testify before the committee regarding the Peace Corps and its 
next 50 years. As we come to the end of this remarkable 50-year 
celebration, this is a timely and important hearing.
    During these 50th anniversary events that Senator Wofford 
alluded to earlier, we have succeeded in unprecedented ways. We 
have had 1.3 million people participate in these events in all 
50 States and some 80 countries. But these anniversary 
celebrations weren't just about looking back at the past, but 
they were really designed with a key principle in mind, and 
that is the anniversary should be an opportunity to advance the 
work of the Peace Corps in striving toward a more peaceful and 
prosperous world.
    One of the most remarkable activities of this anniversary 
celebration was a little more than 2 weeks ago. Five hundred 
community members had an opportunity to come up on Capitol Hill 
and share with Members of Congress and their staff their views 
on the Peace Corps and the impact it had on their lives. And 
with your permission, I would like to submit some of those 
letters into the hearing records.
    Senator Menendez. Without objection.

    [Editor's note.--The letters referred to were too numerous 
to print in this hearing. They will be maintained in the 
permanent record of the committee.]

    Dr. Quigley. Thank you.
    Much like today's hearing, the anniversary was about 
generating ideas and resources to prepare the Peace Corps for 
an even more successful and impactful next 50 years. And 
Chairman Menendez, as you said in your opening remarks, you 
have to understand the past to prepare for the future.
    As Senator Wofford mentioned, the National Peace Corps 
Association, with Civic Enterprises, conducted an unprecedented 
independent survey and report involving more than 11,000 
Returned Peace Corps Volunteers to assess their motivations for 
service, their views on their service, and the impact it had on 
their lives. And I ask that this report and the survey results 
be included in the hearing records.
    Senator Menendez. Without objection.

    [Editor's note.--The report mentioned was too voluminous to 
include in the printed hearing but will be maintained in 
permanent record of the committee.]

    Dr. Quigley. Thank you.
    And let me just briefly summarize three of the major 
findings and categories. Fundamentally, these 11,000 
respondents suggest that Peace Corps service was most effective 
in promoting the goals related to understanding (Peace Corps 
Goals #2 and #3) and was effective, but somewhat less so, in 
terms of the meeting needs for trained manpower in other 
countries (Goal #1), the development goal of the Peace Corps.
    As Senator Shaheen said earlier today during her 
conversation with constituents this past summer in New 
Hampshire, Peace Corps is a transformative experience. In one 
of the most stunning findings from our survey 98 percent of the 
respondents would recommend Peace Corps to their child, 
grandchild, or close family member. And I don't think there is 
any other organization in our society--church, family, 
university--where 98 percent would recommend to a close family 
member that they should participate in that organization.
    The survey results also make it clear that there is an 
unfinished agenda, a lot of work to be done. And so, let me 
just briefly offer a group of observations about the Peace 
Corps and four specific recommendations regarding steps to 
strengthen the Peace Corps.
    One, there is an overwhelming consensus in the community 
that Peace Corps should do much better to document the good 
work it does. Two, that the model of 27 months of service, 3 
months of training follow 2 years of service, is really the 
gold standard of internationsl service, and it should not be 
changed.
    Three, that model, however, should be supplemented by 
short-term service opportunities that allow senior and more 
skilled Volunteers to participate sometimes in conjunction with 
Peace Corps, but not necessarily through a Peace Corps 
administered program. And that these programs could potentially 
be delivered by universities, by corporations, or by 
nongovernmental organizations.
    Here are four recommendations to strengthen the Peace 
Corps. One, I believe very strongly, as Sargent Shriver did, 
that bringing the world home is the most important goal of 
Peace Corps. And as Senator Dodd alluded to earlier today, this 
is an area that has received scant resources, less than 1 
percent through its history. To succeed at this goal will 
require a modestly higher percentage of the Peace Corps' 
overall budget.
    Two, as Senator Rubio suggested, a lot more, I think, can 
be done to align Peace Corps with our long-term national 
interests: significantly expanding our program in China is a 
great example. Getting back into some of the new global powers, 
such as India, Nigeria, and Brazil, would be an important step 
that the Peace Corps could take, although these programs would 
need to involve innovative approaches. I think that the annual 
portfolio review that Peace Corps has started to see how its 
country programs align with our long-term national interest is 
an extremely helpful step in this regard.
    Three, revitalize the National Advisory Council. And Mr. 
Chairman, earlier in the hearing you were asking about the 
culture of Peace Corps, and I think best practice is to have 
multiple mechanisms to ensure that any organization is living 
up to its goals and principles. These include having 
congressional oversight, an engaged concerned community, media 
attention, as well as having an advisory council of experts who 
can provide strategic advice and feedback to the Peace Corps.
    And my fourth recommendation is to routinely share 
information with organizations that promote Peace Corps goals 
and mission.
    Mr. Chairman, I appreciate the opportunity to appear before 
you today, and I would be glad to respond to any questions or 
comments you have.
    Thank you.
    [The prepared statement of Dr. Quigley follows:]

                Prepared Statement of Kevin F.F. Quigley

    Chairman Menendez and Ranking Member Rubio, I am honored to testify 
before this committee regarding the Peace Corps and its next 50 years.
    My name is Kevin F. F. Quigley, and I am President of the National 
Peace Corps Association (NPCA). Founded in 1979 and headquartered in 
Washington, DC, NPCA is the Nation's leading 501(c)(3) nonprofit 
organization supporting Returned Peace Corps Volunteers and the Peace 
Corps community through networking and mentoring to help guide former 
Volunteers through their continued service back home. It is also the 
longest standing advocate on behalf of the Peace Corps and its values 
of service and understanding.
    I was privileged to serve my country as a Peace Corps Volunteer in 
Thailand for 3 years between 1976 and 1979, teaching English in a 
secondary school and later at a teachers' training college in the Isaan 
or Northeast region of that country.
    As we come to the end of a remarkable year-long celebration of the 
50th anniversary of the Peace Corps, this is a timely and important 
hearing. This year-long celebration was designed with two book ends 
echoing the remarkable inception of the Peace Corps: (1) the spark lit 
at the University of Michigan by then-Senator John F. Kennedy on 
October 14, 1960, leading to the establishment of the Peace Corps by 
Executive order on March 1, 1961, and (2) the passage of the Peace 
Corps Act less than a year later on September 22, 1961.
    These 50th anniversary events were designed so that anyone, 
anywhere, who valued the Peace Corps could have a chance to 
participate. We succeeded in unprecedented ways: more than 1.3 million 
individuals participated in anniversary events in more than 80 
countries and all 50 States. Besides commemorating 50 years of service 
and friendships and encouraging the next generation of Volunteers, this 
golden anniversary year was built on a key principle: it should not 
simply be about celebrating the accomplishments of the past, but rather 
this anniversary year should advance the work of the Peace Corps in 
striving toward a more prosperous world in peace.
    On September 22, 2011, we organized one of the principal 
anniversary activities, 50 years to the day after the signing of the 
Peace Corps Act. On that day, we invited Returned Peace Corps 
Volunteers (RPCVs) to meet with Members of Congress and their staff to 
share stories and discuss why the Peace Corps still matters. More than 
500 community members participated. As part of that effort, we 
collected letters from the participants. Here, I'd like to provide a 
few brief excerpts that discuss what the Peace Corps has accomplished.
                                 ______
                                 
Peter and Linda Dahm, River Falls, WI, Micronesia (1973-1975)
    ``We strongly feel that volunteers make a difference. As 
volunteers, we started an export company for an agricultural product 
and that company lasted almost twenty (20) years . . . Our experience 
has led us to a lifetime of commitment to our communities and our 
country. Currently, for example, Peter serves as the volunteer Chair of 
our City Housing Authority. Linda remains active nationally and 
internationally with the Girl Scouts among other activities.''

Susannah Hopkins Leisher, Millburn, NJ, Nepal (1985-1987)
    ``Peace Corps made a fundamental difference to my life's path. It 
was the first step in what has turned out to be, so far, a 20-year 
career working to alleviate global poverty. I brought the Peace Corps-
founded knowledge of the realities of poverty to ten years living and 
working in Vietnam, later carrying these lessons with me to West Africa 
and Central America during my recent five-year stint with Trickle Up, A 
New York City-based non-profit dedicated to reducing extreme poverty. 
The lessons of Peace Corps have enriched my service with many poverty-
fighting organizations in many countries. The American taxpayers' 
modest and long-ago investment in my training and years of service has, 
I do believe, paid off many-fold.''

Nick and Bay Bancroft, Medfield, MA 02052, India (1966-1968)
    ``We are two constituent who served two years in the Peace Corps in 
India from 1966-1968: Nick in small industry development (working in 
cast iron foundries and machine shops making irrigation equipment, as 
India modernized its sugarcane processing), and Bay in Nutrition and 
maternal/child health programs in the schools and villages of our town 
. . . We returned to the U.S. with a visceral understanding of how life 
and people are the same wherever you go, although their circumstances, 
for better and worse, are different from ours in different ways . . . 
For a miniscule cost (compared with the cost of other U.S. agencies 
involved in U.S. foreign relations), Peace Corps volunteers fulfill 
their hard assignments, become fluent in the hard language, make strong 
connections with ``real'' people from the world's developing nations, 
and return to the United States inspired and seasoned by their 
experience.''

Sharon Keld, Southhampton, New York, Morocco (2006-2008), Philippines 
        (2009-2010), Armenia (2011)
    ``I found that, to a person, every Muslim Moroccan who I met was 
pro-American and liked Americans--and on September 11, 2011, I reminded 
friend and family back home that that was the case.''

Wayne L. Haag, Saginaw, MI, Guatemala (1962-1964)
    ``As the U.S. must continue to adapt to an ever changing world, 
full of many challenges, the Peace Corps has left us better prepared to 
identify and/or create win-win situations, thus reducing conflict. I 
have been pleased over the years to see a growing number of U.S. 
Government and international staff positions occupied by people with 
Peace Corps backgrounds. America's voluntary efforts, including the 
Peace Corps, set examples for the rest of the world to emulate, 
encouraging growth in international voluntary efforts. At home, RPCVs 
often use their experiences gained abroad, to strengthen domestic 
voluntary efforts.''
                                 ______
                                 
    So, much like this hearing today, a key goal of this anniversary 
year was generating ideas and resources to prepare the Peace Corps for 
an even more successful and impactful next 50 years. This included the 
NPCA working together with the University of Michigan and the Brookings 
Institution to organize a national symposium on the future of 
international service in Ann Arbor, MI, in October 2010. Last month, on 
September 21, we released the results of the largest independent 
nationally representative survey of Returned Peace Corps Volunteers 
(RPCVs). I now ask that the survey results and an accompanying report, 
``A Call to Peace,'' be entered into the hearing record.
         remarkable results from our ``a call to peace survey''
    This unprecedented independent survey with 11,138 respondents 
sought to explore why individuals volunteered, how they assess their 
experiences, and what impact it had on their lives and careers. This 
survey provides remarkable confirmation that Peace Corps volunteer 
service does lead to a lifetime of service, with RPCVS volunteering at 
twice the national average, improving communities at home and abroad.
    Let me briefly summarize three general findings from our just-
released survey:

    1. Waging Peace as the Overriding Purpose of the Peace Corps: The 
Peace Corps experience has a profound effect on fostering peace and 
understanding among Americans and people around the globe (Peace Corps' 
Goals #2 and #3), with significant but somewhat less effect in meeting 
the need for trained workers in those countries (Goal #1). More than 80 
percent said their service was effective in promoting a better 
understanding of Americans in the communities where they served and an 
almost equal number said their service helped promote a better 
understanding of others at home. Fifty-nine percent said their service 
was effective in helping other countries meet their need for trained 
workers.
    2. A Transformative Experience: The Peace Corps experience is 
transformational for Volunteers--an experience they would strongly 
recommend to their families; often changed the rest of their lives; and 
made them better citizens back home. Ninety percent of RPCVs rated 
their Peace Corps experience as excellent or very good, and a stunning 
98 percent would recommend the Peace Corps to their child, grandchild, 
or other close family member.
    3. Unfinished Business: President Kennedy said that the Peace Corps 
would be serious when 100,000 Americans served abroad every year. Since 
today there are only 8,600 learning new languages, understanding other 
cultures and leading to a more informed U.S. foreign policy that means 
we have a long way to go to realize the vision of its founders. To 
fulfill Kennedy and Shriver's dream, the ServiceWorld coalition was 
formed. This coalition, with more than 300 colleges, employers, and 
nonprofit organizationss, has rallied around an agenda to send 100,000 
Americans abroad annually through three channels: the Peace Corps, 
which the RPCVs surveyed want to see doubled; Volunteers for 
Prosperity, which currently sends 43,000 highly skilled Volunteers each 
year to work on urgent issues such as HIV/AIDS and malaria in Africa; 
and new Global Service Fellowships that would tap up to 10,000 
Americans for up to 1 year of service, with Members of Congress 
nominating outstanding individuals from their districts and states, 
much like they do for the military academies.
          strengthening the peace corps for its next 50 years
    Fifty years into its history, the world is dramatically different 
than when the Peace Corps was first established. The world is more 
urbanized, globalized, and connected through technology, although there 
is a growing number living in poverty without access to health care, 
education, or the means to have a life of dignity. There are many 
countries that would like a Peace Corps program and many Americans who 
are willing to serve, but we simply do not have the resources to meet 
this demand.
    Since the Peace Corps was created, there has been a proliferation 
of international service programs. This includes approximately 20 
countries that have Peace Corps-type government international volunteer 
programs. A number of regional organizations like the European Union 
(EU) and the Association of Southeast Asian Nations (ASEAN) are 
developing their own volunteer programs modeled on the Peace Corps. 
Increasingly universities and corporations are developing international 
volunteer programs as central to their educative and business missions. 
There are literally thousands of different options to volunteer 
internationally, varying in length of time, location, and application 
requirements. Given these myriad options, the Peace Corps faces intense 
competition for volunteers--a competition that is only likely to 
increase in the decades ahead.
    Our recent survey also explored various ideas about how the Peace 
Corps could improve during its next half century. Generally, there was 
a strong sense that there were unprecedented new opportunities for the 
Peace Corps to cooperate with other programs and organizations. Some of 
these ideas to strengthen the Peace Corps include:

  <bullet> There was an overwhelming consensus that the Peace Corps 
        should do more to document the impact of its work.
  <bullet> There was also a strong consensus that the Peace Corps 
        should not change its 27-month model, which includes 3 months 
        of training followed by 2 years of service. RPCVs understand 
        better than anyone that integration within the host community 
        and the lengthy tenure of Peace Corps volunteer service is 
        qualitatively different from other international volunteer 
        programs.
  <bullet> This overwhelming support for the 27-month program model was 
        not, however, to suggest that the Peace Corps should not 
        change. Rather, to meet changing circumstances in a dynamic and 
        unpredictable world, the survey respondents suggested that the 
        Peace Corps should develop a broader network of highly 
        substantive partnerships with other volunteer sending programs 
        including nongovernmental organizations, universities, 
        corporations and/or other federal agencies. In this way, the 
        Peace Corps could better meet the need for more highly trained 
        but shorter termed volunteers. In recent years, the Peace Corps 
        has made progress in developing these partnerships, especially 
        through PEPFAR (The President's Emergency Plan for AIDS 
        Relief).
  <bullet> Many of these ideas to strengthen the Peace Corps harken 
        back to the ideas of the Peace Corps' visionary founders, 
        Sargent Shriver and Harris Wofford. They envisioned that there 
        would be multiple channels for delivering high quality 
        volunteer programs and that a self-administered government 
        program was just one of those program delivery channels. The 
        survey respondents endorse using multiple channels to deliver 
        international service efforts.
               maintaining support of the american people
    Since its inception, the Peace Corps has had an overarching mission 
of promoting friendship and peace with three specific interrelated 
goals, one relating to advancing human development through meeting the 
needs for trained manpower and two related to promoting understanding 
of other peoples and cultures. This mission and these three goals are 
as relevant today as they were when the Peace Corps was created. I also 
think that they are likely to be relevant for the next 50 years. I 
believe, as apparently Sargent Shriver did, that ultimately the so-
called Third Goal of bringing the volunteer experience back home may be 
the most important goal of all of these.
    In response to a congressional request, the Peace Corps completed 
an internal assessment and a strategic plan in June 2010. There are 
numerous good ideas contained in that plan. Like the Congress, the 
Peace Corps community is keenly interested in learning more about 
progress made in executing that plan, especially on an ongoing basis.
    For the committee's consideration, I suggest four ideas to 
strengthen the Peace Corps in its next half-century:

    1. Provide more support for Bringing the World Home. Unfortunately, 
the Bringing the World Back Home Goal has received the least resources, 
averaging less than 1 percent of the agency's annual budget these past 
50 years. While it is understandable that the Peace Corps has focused 
its resources on recruiting, training, and supporting Volunteers in as 
many countries requesting the Peace Corps as possible, this 
underresourcing of this essential goal deprives the American people 
from benefiting as they might from the Volunteers' international 
service experience. Without knowing more about the understandings 
garnered from Volunteers' service and the results that Volunteers 
achieve at home and abroad, it may be increasingly difficult to secure 
the needed financial support in these especially challenging financial 
times.
    2. Align Country Selection More Closely with Long-term National 
Interests. Developing programs with countries that are more clearly 
related to our long-term national interests is critical to securing 
ongoing support. The Peace Corps' recent annual portfolio review is an 
important step in the right direction. However, this portfolio review 
needs to weigh more heavily strategic countries important to our long-
term interest and for them, in particular, develop innovative 
partnership approaches. These long-term interests pertain to U.S. 
economic, political, security and cultural interests around which there 
is bipartisan support. For example, these interests would include 
deepening the Peace Corps presence in predominantly Muslim countries 
and ``rising global powers.'' For a variety of reasons, the Peace Corps 
has not had programs in countries of growing stature internationally, 
such as Brazil, India, and Nigeria for decades--perhaps in part because 
the Peace Corps succeeded there. The Peace Corps currently has only 
modest programs with two of the world's most populous countries, China 
and Indonesia. Developing programs with these rising global powers, 
which may involve working jointly in third countries or perhaps having 
bilateral programs where Americans volunteered there and citizens of 
these countries volunteered here, could be extremely important to 
advancing our long-term national interests. Peace Corps-type programs 
in and with these rising countries, or with other countries that have 
``graduated'' from Peace Corps programs, such as Korea, might also 
create innovative cofinancing possibilities.
    3. Revitalize the National Advisory Council. Established by the 
Peace Corps Act, the Peace Corps National Advisory Council is an 
advisory committee appointed by the President with the advice and 
consent of the Senate. In recent years, this Council has been moribund. 
In his FY 2012 budget request, President Obama indicated that he 
intended to revitalize this Council. He said that, ``The council is 
also charged with making recommendations for the purpose of guiding the 
future direction of the Peace Corps and of helping to ensure that the 
purposes and programs of the Peace Corps are carried out in ways that 
are economical, efficient, and responsive to changing needs of, and 
relationships with, the countries and peoples being served.'' 
Revitalizing this Council could help fulfill the purpose of this 
hearing. I urge that this committee and the Senate push for a 
revitalization of the National Advisory Council.
    4. Routinely Share Information with Organizations Promoting the 
Peace Corps' Mission. As long as the Peace Corps continues to focus the 
preponderance of its resources on recruiting, training, and supporting 
Volunteers (goals #1 and #2) leaving scant resources for bringing the 
world home efforts (goal #3), the best way for the Peace Corps to 
address this Third Goal is through extensive and substantive 
partnerships with RPCVs organizations. In addition to the NPCA and its 
network of 146 formally organized member groups, there are numerous 
other RPCV organizations that are working to help measure the impact of 
Volunteer service and assist with bringing these Volunteer experiences 
home in ways that strengthen communities at home and abroad. The 
government agency now interprets that the Peace Corps Act precludes 
sharing information with outside organization without the express 
consent of the Appropriation Committees. That presumption should 
change. I urge this committee's assistance in ensuring that 
organizations that promote the Peace Corps mission and values have 
regular and routine access to the information necessary to accomplish 
this.
    Chairman Menendez, these are just a few ideas and recommendations 
on how the Peace Corps could be strengthened in ways that enhance its 
capability to make significant progress in advancing its timeless goal 
of a prosperous world at peace over its next 50 years.
    I would be glad to address any questions or comments that you or 
other committee members have.

    Senator Menendez. Thank you very much.
    Ms. Odongo.

STATEMENT OF ELIZABETH ODONGO, TRAINING AND OUTREACH DIRECTOR, 
    D.C. COALITION AGAINST DOMESTIC VIOLENCE, WASHINGTON, DC

    Ms. Odongo. Good afternoon. My name is Liz Odongo. I am the 
training director at the D.C. Coalition Against Domestic 
Violence, and I am proud to be a Returned Peace Corps 
Volunteer.
    I am here today hoping to make the Peace Corps better, 
safer, and stronger for its next 50 years. Part of shaping the 
future requires an honest look at the past.
    When I was 23 years old, I served as a Peace Corps 
Volunteer in Guyana, where I was stalked and terrorized by the 
same person who had assaulted the Volunteer who served in my 
site before me. The Peace Corps knew about this, but they had 
never warned me.
    When it happened, I was young, scared, and alone, and I 
turned to the Peace Corps--my employer, my protector, my 
government. I asked the Peace Corps to listen and help me. 
Instead, it blamed and later disowned me. Unfortunately, 
thousands of Volunteers have had experiences like mine, and 
this year, they asked Congress to listen and to help.
    You demonstrated your willingness to do both. So, today, I 
am here to thank the Senate for working hard to find a solution 
to this longstanding and systemic problem and for passing the 
Katie Puzey Peace Corps Volunteer Protection Act, which, if 
ultimately enacted, will protect future Volunteers from the 
terror and isolation that I and so many others have 
experienced.
    I also want to thank Director Williams for working with 
Congress diligently and enthusiastically during this difficult 
process. Thank you.
    In the last 10 years alone, over 1,000 women and men, young 
and old, who chose to serve their country as Peace Corps 
Volunteers reported that they were victims of horrific sexual 
assaults during their service. It is estimated that in those 
same 10 years, at least another 1,000 were assaulted but chose 
not to report it.
    You have heard many of the stories. A woman alone, walking 
down a street in Bangladesh, is taken, gang raped, tortured, 
and left for dead. A teacher thousands of miles from home is 
held captive and brutally raped for hours until she stops 
begging to live and starts praying to die.
    But part of their stories that are too often overlooked is 
what happened afterward when they asked the Peace Corps for 
help. Historically, Peace Corps Volunteers and staff were often 
given no training on how to protect themselves or others from 
dangerous situations. Volunteers who were attacked often had no 
idea where to go for help.
    Those who report their attacks to the Peace Corps staff 
were often dismissed, belittled, or blamed. In recent months, 
congressional investigation and media reports have revealed 
that Peace Corps' inadequate response to victims of sexual 
assault is systemic and longstanding. But the Katie Puzey Peace 
Corps Volunteer Protection Act would change that.
    First, this bill, championed by Senators Boxer and Isakson, 
requires the Peace Corps to provide vital training on important 
and common sense techniques, such as the buddy system and 
bystander intervention, and to institute best practices in 
safety and survivor response. No more Volunteers will be 
dismissed when reporting danger or assaults. They will be taken 
to a safe place, seen by a doctor, provided appropriate mental 
health care, and given the opportunity to prosecute their 
attacker.
    Second, the bill creates confidentiality protocols to 
ensure Volunteers are not put in harm's way for exposing danger 
or wrongdoing. No more Volunteers will be murdered in their 
sleep when their perpetrators find out what they reported. They 
will be protected.
    Finally, the bill creates accountability and oversight to 
ensure these policies are followed. No more staff members who 
ignore or mistreat survivors will be rehired or left in 
positions of authority. Instead, actions will be taken to 
ensure Volunteers can trust those they must report to.
    You have asked me today to provide you with my professional 
assessment of this legislation, not just as a former Volunteer 
and rape victim, but as a leading expert in the field of 
violence against women. I can tell you with confidence, as an 
expert, that I believe this bill is critical. It will save 
thousands more from the devastation that has already been 
suffered by too many.
    In closing, I thank you for listening to me and commend you 
for your leadership and thoughtfulness in drafting and passing 
this bill to create a stronger, safer Peace Corps for the next 
50 years.
    Thank you.
    [The prepared statement of Ms. Odongo follows:]

                 Prepared Statement of Elizabeth Odongo

    My name is Liz Odongo. I am the Training and Outreach Director at 
the D.C. Coalition Against Domestic Violence and I am proud to be a 
Returned Peace Corps Volunteer. I am here today hoping to make the 
Peace Corps better, safer and stronger for its next 50 years. Part of 
shaping the future requires an honest look at the past.
    When I was 23 years old, I served as a Peace Corps Volunteer in 
Guyana, where I was stalked and terrorized by the same person who had 
assaulted the Volunteer who served in my site before me. The Peace 
Corps knew, but never warned me. When it happened, I was young, scared 
and alone and I turned to the Peace Corps--my employer, my protector, 
my government. I asked the Peace Corps to listen and to help me. 
Instead it blamed and, later, disowned me. Unfortunately, thousands of 
Volunteers have had experiences like mine. And, this year, they asked 
Congress to listen and to help. You demonstrated your willingness to do 
both. So today, I am here to thank the Senate for working hard to find 
a solution to this longstanding and systemic problem, and for passing 
the Kate Puzey Peace Corps Volunteer Protection Act which, if 
ultimately enacted, will protect future Volunteers from the terror and 
isolation that I, and so many others, have experienced. I also thank 
Director Williams for working with Congress, diligently and 
enthusiastically, in this difficult process. Thank you.
    In the last 10 years alone, over 1,000 women and men, young and 
old, who chose to serve their country as Peace Corps Volunteers, 
reported they were victims of horrific sexual assaults during their 
service. It's estimated that, in those same 10 years, at least another 
thousand were assaulted but chose not to report it. You've heard many 
of the stories: A woman alone, walking down a street in Bangladesh, is 
taken, gang raped, tortured and left for dead. A teacher, thousands of 
miles from home is held captive and brutally raped for hours, until she 
stops begging to live and starts praying to die. But the part of their 
stories that are too often overlooked is what happened afterward, when 
they asked the Peace Corps for help.
    Historically, Peace Corps Volunteers and staff were often given no 
training on how to protect themselves or others from dangerous 
situations. Volunteers who are attacked often had no idea where to go 
for help. Those who report their attacks to the Peace Corps' staff were 
often dismissed, belittled or blamed. In recent months, congressional 
investigation and media reports have revealed that Peace Corps' 
inadequate response to victims of sexual assault is systemic and 
longstanding. But the Kate Puzey Peace Corps Volunteer Protection Act 
would change that.
    First, this bill, championed by Senators Boxer and Isakson, 
requires the Peace Corps to provide training in important and common 
sense techniques, like the buddy system and bystander response, and to 
institute best practices in safety and survivor response. No more 
Volunteers will be dismissed when reporting danger or assault. They 
will be taken to a safe place, seen by a doctor, provided appropriate 
mental health care and given the opportunity to prosecute their 
attacker.
    Second, the bill creates confidentiality protocols, to ensure 
Volunteers are not put in harm's way for exposing danger or wrongdoing. 
No more Volunteers will be murdered in their sleep when their 
perpetrators find out what they've reported. They will be protected.
    Finally, the bill creates accountability and oversight, to ensure 
these policies are followed. No more staff members who ignore or 
mistreat survivors will be rehired or left in positions of authority. 
Instead, actions will be taken to ensure Volunteers can trust those 
they must report to.
    You have asked me today to provide you with my professional 
assessment of this legislation, not just as a former volunteer and rape 
victim, but as a leading expert in the field of violence against women. 
I can tell you with confidence, as an expert, that I believe this bill 
is critical. It will save thousands more from the devastation that has 
already been suffered by too many.
    In closing, I thank you for listening to me and commend you for 
your leadership and thoughtfulness in drafting and passing this bill to 
create a stronger, safer Peace Corps for the next 50 years. Thank you.

    Senator Menendez. Thank you very much.
    Thank you all for your testimony.
    I appreciate your sharing your story, Ms. Odongo. And I 
want to ask you--this was part of my question to the director, 
and the earlier panel--you describe a set of circumstances in 
which what I describe as a culture was not responsive to you as 
a Volunteer who suffered a sexual assault. And you describe 
that that may very well have been the case with others.
    What was it, what took place that was fundamentally wrong? 
What was the response when you went to your country director 
and told them what had transpired? What response did you get?
    Ms. Odongo. I first contacted and I first went to the Peace 
Corps office. I was very remote, no phones or anything. So I 
traveled to Georgetown, the capital, and first went to the 
Peace Corps nurse, who was very sympathetic and supportive. She 
connected me with the doctor, and the Peace Corps security 
officer was also very receptive.
    They accompanied me back into the village to try to arrest 
the assailant. But it is the bush, and he disappeared the three 
times that they tried to arrest him. But that being said, after 
those initial response, when they couldn't do anything, it was 
as if they decided they couldn't admit that this happened and 
started to blame me and point out things that I had done wrong.
    They put bars on my windows so that it felt as if I was 
living in prison and in jail and told me I couldn't leave my 
house other than the work hours. So it shifted from 
understanding and compassion to quickly blaming and distancing 
themselves from their role or their obligation to support me.
    Senator Menendez. And did you ever get to speak to the 
country director about your circumstances?
    Ms. Odongo. I did. There were a series of four incidents, 
and each time I was asked to write an incident report. And I 
think at least two of those times I met with the country 
director, and again, their response was more on what I should 
be doing and what I need to do in the future to protect myself, 
not what would be helpful, not what I needed. And so, it just 
sort of--through the process, I sort of became complacent in 
that this was my fault and that I was the one in control of 
someone else harming me.
    Senator Menendez. Ms. Buller, this experience that Ms. 
Odongo talks about, is it an experience that your department, 
as the inspector general, has reviewed, and is it both 
quantifiable as well as been responded to?
    Ms. Buller. We are currently involved in a review of the 
agency response to sexual assaults, and we will have a report 
out within the next month or so. We have conducted that review 
and contacted numerous survivors of assault and have 
incorporated their experiences into our report.
    So there will be a report, and hopefully, we will be able 
to quantify some of that, yes.
    Senator Menendez. Well, I am looking forward to that.
    So I see that you in your testimony talked about also 
undergoing an evaluation of the impact of the 5-year rule.
    Ms. Buller. Yes.
    Senator Menendez. What prompted that study, and have there 
been any past evaluations worthy of recognizing about the 5-
year rule?
    Ms. Buller. General recognition, I think, about the lack of 
institutional knowledge in the agency was one of the drivers of 
our reviewing the 5-year rule. There have been studies 
conducted in the past, but we haven't had anything that 
actually would show the impact of that rule on agency 
operations, and that is what my office is undertaking.
    We don't plan to make recommendations about the 5-year 
rule, but what we would like to do is to have a document that 
the agency and other decisionmakers can look at to see what the 
impact of that rule is on the agency's operations.
    Senator Menendez. So you are not going to make a 
recommendation about the 5-year rule, but you are going to make 
observations about it?
    Ms. Buller. We are going to provide data. We are going to 
be able to provide you with, for example, the average number of 
years a Peace Corps staff member stays on. But we will be able 
to also break that down by office, in particular core agency 
function offices.
    Senator Menendez. The last thing is you conclude your 
formal testimony by saying the agency must evolve and ensure 
its business processes reflect the activity of today's Peace 
Corps, not the agency that was founded 50 years ago.
    Can you expound upon that? What exactly do you mean?
    Ms. Buller. The agency, given the fact that it is so 
decentralized, has so many business processes that directly 
impact support given to Volunteers. From what we have found 
through our work, not just in the safety and security audit or 
the medical unit, but also just regular post evaluations and 
audits, is that there aren't clear procedures in place for 
country directors and staff to follow.
    For example, it is a site development issue in whether or 
not somebody should have known that somebody had already been 
harassed at site. That should have been included in a site 
history folder and accessible by staff. There is no policy in 
place that sets out what should be included in folders, how 
they should be maintained, and how they should be used. Things 
of that nature.
    Peace Corps needs to put the processes and procedures in 
place that are necessary for country directors and their staff 
to do their work adequately.
    Senator Menendez. I appreciate that.
    Dr. Quigley, I glanced through ``A Call To Peace,'' and I 
am looking forward to reading it in full. To what extent are 
recently Returned Volunteers encouraged to participate in the 
shaping of the organization after their service?
    Dr. Quigley. Thank you very much, Mr. Chairman.
    Not as much as we would like. Let me expand upon that a 
little bit. I think the question you are asking about the 
culture and the receptivity to Volunteer input is really a 
critical one. Any organization, any individual that is half a 
century old, sometimes gets a little set in its ways. That is 
completely natural and understandable.
    The Peace Corps is a big, complex organization, which 
operates in a lot of countries. And I think every one of the 18 
directors, if they came before this committee, could credibly 
say they can't succeed without the Volunteers. But there are 
often impediments to significant Volunteer input on a range of 
issues. Sometimes it is about structure. Sometimes it is about 
technology. Sometimes it is about personality.
    There are a variety of factors that prevent essential 
Volunteer input preventing what we would all like to see 
happen, as much as we think it should happen. I think Peace 
Corps has done exceptionally well at engaging returned 
Volunteers in the recruitment process and in the training 
process. The Peace Corps has been less successful in engaging 
Volunteers/Returned Volunteers in the placement program review 
and staff assessment processes. As reflected in the scant 
resources provided to one of three fundamental Peace Corps 
goals that directly relates to Volunteers, the Bringing the 
World Back Home or so-called Third Goal, there are missing a 
significant opportunity to engage Volunteers/Returned 
Volunteers.
    And I think you heard from all the witnesses today that the 
Peace Corps' three goals are timeless. Unfortunately, the 
Returned Volunteer community is not as strong a partner as it 
should be in implementing a key aspect of Peace Corps' Third 
Goal.
    Senator Menendez. I heard you mention a Volunteer advisory 
of returned Peace Corps Volunteers in your oral testimony, has 
that gotten any receptivity by the present leadership?
    Dr. Quigley. We understand it was included in the 
President's FY 2012 budget request. The President indicated 
that he intended to revitalize this National Advisory Council 
that exists in the Peace Corps Act, which has been moribund for 
the last couple of decades. We think that revitalizing this 
National Advisory Council would be a great step forward despite 
the resources required to do so.
    The composition of this National Advisory Council, Mr. 
Chairman, wouldn't just be exclusively Returned Peace Corps 
Volunteers. A majority of the members would be Returned Peace 
Corps Volunteers, but there would be significant representation 
from non-RPCVs, allowing for the input and expert advice of 
others engaged in international service programs and 
international development. These individuals could provide 
highly relevant expertise advice and a kind of strategic 
guidance and feedback that I think any best-of-class 
organization should welcome.
    Senator Menendez. Well, this has been incredibly helpful. I 
want to thank all of you for your testimony and for your 
responses.
    I certainly hope that the opinions of Volunteers and former 
Peace Corps Volunteers and Peace Corps staff continue to factor 
into the decisionmaking, that headquarters will serve as a 
resource, a facilitator, and a source of clear and consistent 
information and support for Volunteers and country staff, and 
that we develop a culture in the Peace Corps in which we 
understand that the very essence of the agency is its 
Volunteers, its human capital. How we best preserve, enhance, 
and promote that human capital at the end of the day will make 
for, hopefully, a fabulous next 50 years.
    With that, the record will remain open until the close of 
business tomorrow. And with the thanks of the committee for 
your testimony, this hearing is adjourned.
    [Whereupon, at 12:53 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Responses of Peace Corps Director Aaron S. Williams to Questions 
          Submitted for the Record by Senator Robert Menendez

    Question #1. Ensuring Continuity.--While I appreciate that under 
your leadership, the Peace Corps is on track to enacting meaningful 
reforms, how will you ensure that those reforms that are not legislated 
continue to exist and be prioritized after you leave the Peace Corps?

    Answer. As I noted in my testimony, I welcome efforts in Congress 
to codify certain of the reforms that the Peace Corps has put in place 
since 2009, in order to ensure that Peace Corps Volunteers receive the 
support and protection they deserve now and in the future. While I 
obviously cannot speak to any decisions that my successors at the 
agency may make, I have tried during my tenure as Director of the Peace 
Corps to ensure that agency culture, practices, and procedures reflect 
a fundamental commitment to ensuring the well-being of all Volunteers.
    By hiring a nationally recognized leader in victims' rights to 
serve as the agency's first Victim Advocate, by signing a formal 
memorandum of understanding with the Rape, Abuse and Incest National 
Network (RAINN), and by establishing the Peace Corps Volunteer Sexual 
Assault Panel, composed of returned Peace Corps Volunteers and experts 
in sexual assault risk reduction and response, I have sought to ensure 
that our policies in this area are carefully vetted and based on best 
practices. I believe that we have established a strong foundation and 
key partnerships that will help make these reforms a lasting part of 
the Peace Corps.
    In addition, where appropriate, changes have been made to the 
agency's formal internal policies and procedures to ensure that all 
current and future staff are aware of and abide by these reforms. For 
example, the agency created a new section of the Peace Corps Manual--
which constitutes the authoritative policies governing the operations 
of the Peace Corps in the United States and overseas--to ensure that 
allegations and concerns expressed by Volunteers are given serious 
consideration, and that appropriate measures to ensure the safety of 
Volunteers raising such concerns. Staff have received training on this 
policy, which is contained in Peace Corps Manual Section 271. The 
agency also revised Peace Corps Manual Section 270, which addresses 
Volunteer safety and security, in December 2010, and provided detailed 
guidance to overseas staff on implementation of aspects of Manual 
Section 270.
    The agency also recently revised its written medical guidelines for 
the clinical management of sexual assault to comply with the National 
Protocol for Sexual Assault Medical Forensic Examinations. And the 
Peace Corps has distributed formal guidance to overseas staff on 
responding to rapes and sexual assaults, and on the specific procedures 
to follow when Volunteers express concerns about their safety, or in 
any other situations that may threaten Volunteer well-being. All of 
these documents are available on the Peace Corps' Intranet.
    I also oversaw the creation of the agency's Senior Policy 
Committee, a formal internal body charged with developing and 
promulgating official agency policies in a comprehensive, consistent 
way with all stakeholders providing relevant input. Through its work, 
the Senior Policy Committee helps to ensure that agency policies are 
disseminated to and followed by all staff at headquarters and overseas.
    In addition, as we implement the 2010 Comprehensive Agency 
Assessment--our blueprint for strengthening agency operations and 
performance--we are making a number of improvements to agency 
operations that are designed to be systemic and lasting. Through this 
effort we have developed and are now institutionalizing the country 
portfolio review, the Peace Corps' first-ever formalized process for 
allocating resources across our countries of operations; we are 
focusing our grassroots development efforts overseas on technical areas 
where our Volunteers demonstrate the greatest ability to be effective; 
and we are developing standardized core training to prepare our 
Volunteers to better complete their technical assignments, bringing 
greater consistency and quality to our Volunteer community and local 
partners around the globe. These efforts are supported by policy 
development, business model restructuring, and staff reorganization to 
ensure that they are sustainable in the future.

    Question #2. Reoccurring Safety and Security Problems.--The April 
2010 IG report noted that, between FY 2004 and FY 2009, it had 
identified ``numerous'' reoccurring evaluation findings, such as posts 
not thoroughly completing housing/site inspections, Volunteers engaged 
in unsafe behaviors, various cities where Volunteers were in locations 
considered unsafe, and inadequate emergency action plans. What steps 
are you taking to ensure that problems identified in one country do not 
reoccur in that country and do not reoccur in other posts? Given the 
repeated evidence in recent years of Peace Corps insensitivity and 
incapacity to address victims concerns, do you have confidence that the 
agency has finally taken appropriate lasting action to meet safety 
needs?

    Answer. The Peace Corps takes the recommendations of its Office of 
Inspector General (OIG) very seriously and the agency's Chief 
Compliance Officer is charged with making sure that OIG recommendations 
are implemented in an appropriate and timely manner.
    In its April 2010 ``Final Audit Report: Peace Corps Volunteer 
Safety and Security Program,'' the OIG made four recommendations 
specifically addressing the need to ensure posts comply fully with 
safety and security requirements. The OIG recommended that the agency: 
establish a process to identify and address reoccur-
ring safety and security issues; establish a process to track post 
compliance with agency policies regarding staff background 
investigations; require that posts take steps to review and assess 
compliance with Peace Corps Manual Section 270, which addresses 
supervision of Volunteers, work assignments and site selection; and 
empower the Office of Safety and Security to review and provide 
guidance on actions taken by posts with respect to the safety and 
security of Volunteers. The Peace Corps has implemented all of these 
recommendations, and they have now been closed by the OIG.
    The Peace Corps' Office of Safety and Security is charged with 
overseeing security procedures at posts and providing posts with the 
technical expertise, guidance, and training necessary to protect and 
support Volunteers. Safety and Security staff at headquarters and 
overseas help to ensure that posts are following appropriate 
procedures. The office includes 10 regionally based Safety and Security 
Officers, who visit each post at least annually and conduct a 
compliance review and risk assessment for each post at least every 3 
years.
    Over the past 2 years, the agency has undertaken comprehensive and 
systemic reforms to meet the safety needs of our Volunteers. This work 
is still ongoing, but, as noted in my response to question (1) above, I 
believe that we have already taken significant steps to better protect 
and support Volunteers and to make these improvements a lasting part of 
the agency's policies and practices.

    Question #3. Crime Reporting.--The Peace Corps has a system to 
report crimes but for a variety of reasons, some Volunteers may be 
underreporting both crime and general security concerns. What measures 
are you taking to improve data collection and encourage Volunteers to 
fully report security problems?

    Answer. The Peace Corps tracks incidents against Volunteers through 
the Consolidated Incident Reporting System (CIRS). CIRS is designed to 
ensure that the agency responds appropriately to victims of crime and 
to allow the agency to improve training and modify programming to 
enhance the safety of all Volunteers. The Peace Corps upgraded CIRS 
this year to improve reporting, tracking, and analysis of safety and 
security incidents. The upgraded system includes vehicular accidents 
and incidents affecting both Volunteers and staff. It also includes a 
new case management function to help ensure consistent, ongoing support 
to Volunteers who are victims of crime.
    Peace Corps Volunteers are instructed to report crimes to staff at 
post in order to ensure that they receive the support and care they 
need and that the agency is able to provide for their safety and that 
of other Volunteers. Through steps such as the issuance of Peace Corps' 
``Commitment to Sexual Assault Victims'' and ``Guidelines for 
Responding to Rape and Sexual Assault,'' the Peace Corps has attempted 
to encourage victims of sexual assault to report these crimes. The 
``Commitment to Sexual Assault Victims'' includes the Peace Corps' 
pledge to treat such victims with dignity and respect, take appropriate 
steps to provide for their ongoing safety, help them understand the 
relevant legal processes and legal options, and protect their privacy. 
The commitment is included in the latest version of the ``Peace Corps 
Volunteer Handbook,'' which all Volunteers receive.
    Peace Corps also issued new guidance to staff on the specific 
procedures to follow when Volunteers express concerns about their 
safety, or in any other situations that may threaten Volunteer well-
being. By helping to ensure that staff take appropriate steps to 
provide for the safety of Volunteers, the guidance should encourage 
Volunteers to report any security concerns they may have.
    The Peace Corps publishes an ``Annual Report of Volunteer Safety'' 
which provides detailed data and analysis regarding crimes against 
Volunteers. The report is based on data collected through CIRS and it 
includes a discussion of underreporting of various crimes. See, e.g., 
pp.16, 29, 48 of the 2009 report, available at http://
multimedia.peacecorps.gov/multimedia/pdf/policies/volsafety2009.pdf.

    Question #4. Buddy System and Volunteer Clustering.--The Peace 
Corps has emphasized the importance of integrating Volunteers into the 
host community though some have proposed an alternate system that would 
allow Volunteers the option of pairing up for overseas assignments. 
What would be the implications of the proposed alternate system on both 
the safety and security of Volunteers and the way in which they serve 
overseas? How are decisions made about when to cluster Volunteers and 
the proximity of Volunteers in a cluster? Is clustering used routinely 
in sites where problems have been identified by past Volunteers?

    Answer. The Peace Corps' ``Strategy for Volunteer Safety and 
Security'' emphasizes the importance of integrating Volunteers into 
their host country community. As the strategy states: ``Peace Corps 
Volunteers are safest when they are in their respective communities and 
when they have established relationships with community members, host 
families and others to create an effective support network. Peace Corps 
staff plays a key role in helping Volunteers integrate into their 
community through training and site preparation. Much of what takes 
place during Pre-Service Training (PST) is designed to help Volunteers 
integrate, especially through language, cross-cultural and technical 
training.''
    While the Peace Corps is open to discussing proposals to allow 
Peace Corps Volunteers to ``pair up,'' it is important to ensure that 
such proposals are consistent with the ``Strategy for Volunteer Safety 
and Security'' and do not hinder Volunteers' integration into their 
community. It is also important to specify what is meant by pairing. 
For example, requiring that paired Volunteers live together could make 
it more difficult for the agency to place such Volunteers overseas, 
particularly in rural areas where there may not be multiple work 
assignments appropriate for Peace Corps. Requiring instead that paired 
Volunteers live in proximity to one another would help to address this 
concern.
    Another concern could arise if Volunteers were charged with serving 
as first responders for incidents involving their paired Volunteer. 
Taking such responsibilities away from trained Peace Corps staff could 
jeopardize the health and safety of Volunteers, and unnecessarily 
burden Volunteers. Currently, designated Peace Corps staff serve as 
duty officers at every post and are available 24/7 to respond to 
emergencies. Every post has a Safety and Security Coordinator and one 
or more Peace Corps Medical Officers to assist Volunteers. Moreover, 
under S. 1280, the Kate Puzey Peace Corps Volunteer Protection Act of 
2011, the agency would also be required to designate a Sexual Assault 
Response Liaison at every post to assist in the response to a sexual 
assault.
    Where appropriate, the Peace Corps uses a strategy of 
``clustering'' Volunteers, or placing a number of Volunteers in 
neighboring communities in relatively close proximity to one another. 
Peace Corps considers clustering of Volunteers an effective strategy to 
improve Volunteer support and programmatic effectiveness. Clustering 
helps:

  <bullet> Increase Volunteer collaboration and support.
  <bullet> Place highly skilled Volunteers near generalist Volunteers 
        to improve technical support.
  <bullet> Encourage communication between partners from different 
        communities, enabling them to learn from each other.
  <bullet> Facilitate management of Volunteers and the site development 
        process.
  <bullet> Improve peer support and responsiveness to safety and 
        security concerns.

    Peace Corps encourages clustering of Volunteers at posts. The 
decision to cluster assignments is made by each post based on 
geographic, programmatic, and Volunteer support needs. Roughly half of 
Volunteers report that are no more than 30 minutes away from the 
closest Volunteer.
    Clustering is not a substitute for other steps the Peace Corps 
takes to address specific concerns at Volunteer sites. Peace Corps 
staff rely on site inspections and visits and site history 
documentation to ensure that sites are appropriate and meet all Peace 
Corps and post-established criteria. The Peace Corps closely monitors 
and regularly reevaluates the placement of Volunteers based on safety 
and security considerations, among other factors. The Peace Corps also 
institutes measures, as needed, to enhance the safety and security of 
Volunteers serving at particular posts, such as restricting the times 
when Volunteers may travel, the mode of transportation used, and the 
areas that Volunteers may visit.

    Question #5. Peace Corps Expansion.--Currently, there are roughly 
8,655 Volunteers in the Peace Corps. The Bush administration's 2002 
expansion initiative would have doubled the agency's size from its 
January FY 2002 level of 7,000 to 14,000 by FY 2007. The Obama 
administration has proposed budgets with a stated objective of reaching 
an 11,000 Volunteer force by 2016. Why should the Peace Corps expand? 
What size Peace Corps would you view as optimal? Is there, in your 
view, an optimal number of countries in which the Peace Corps should 
operate?

    Answer. The work of Peace Corps Volunteers to promote development 
at the grassroots level, and promote a better understanding of 
Americans overseas, is more important than ever in an increasingly 
complex world. Volunteers spend 27 months living and working in areas 
that other programs are often unable to reach. Their work, which ranges 
from targeting some of the most debilitating diseases around the world 
to promoting sustainable farming practices, is crucial.
    The Peace Corps operates globally on a shoestring budget--Peace 
Corps receives less than 1 percent of the Federal Government's overall 
foreign spending. Moreover, the investment we make in our Volunteers 
continues to be repaid long after they have returned home. As President 
Obama has said, ``Returned Volunteers, enriched by their experiences 
overseas, bring a deeper understanding of other cultures and traditions 
back to their home communities in the United States.'' The skills, 
knowledge, and commitment to public service that Volunteers acquire 
through their service are invaluable to our country.
    Expanding the Peace Corps would allow the agency to better meet the 
demand for its services--requests for Volunteers still far exceed the 
Peace Corps' capacity to place them--and to fulfill its important 
mission. There are currently over 9,000 Volunteers serving in 76 
countries and there is no doubt that the agency could effectively 
deploy more Volunteers and operate in more countries if it had 
sufficient resources.

    Question #6. Staff Support.--A factor in enabling Volunteer 
effectiveness is strong staff support, including good programming, 
training, and administration. Is the current number of staff and the 
ratio of staff to volunteers sufficient to meet Peace Corps needs at 
this time?

    Answer. A healthy, safe, and productive experience is our goal for 
every Volunteer. The Peace Corps is committed to maintaining high-
quality programming, training, and administration at each of its posts.
    Staffing numbers and ratios are based on geographic, programmatic, 
and security considerations, and staff on the ground work closely with 
headquarters to determine appropriate staffing levels at each post. 
Through such steps as establishing regional offices and clustering 
Volunteers in proximity to one another, posts are able to enhance staff 
support for and interaction with Volunteers. As Peace Corps continues 
to adjust to the new fiscal environment, the agency will keep working 
to ensure that staff ratios are optimized to ensure strong support for 
our Volunteers.

    Question #7. Volunteer Diversity.--In FY 2010, 19 percent of Peace 
Corps Volunteers were ethnic minorities--3 percent African American; 5 
percent Asian American; and 6 percent were of Hispanic/Latino origin. 
More than half of current volunteers--60 percent--were female. Seven 
percent of Volunteers were over 50. Are you satisfied with the current 
diversity of Peace Corps Volunteers? If not, what measures would you 
propose to increase diversity?

    Answer. I am committed to ensuring that Peace Corps Volunteers 
reflect the full diversity of the United States. Peace Corps' Office of 
Diversity & National Outreach (ODNO) has undertaken a number of 
initiatives to increase awareness and outreach with respect to diverse 
communities:

  <bullet> ODNO conducted diversity recruitment trainings for all of 
        Peace Corps' nine regional recruitment offices. Included in 
        each session was a detailed overview of national and regional 
        diversity recruitment trends and implementable diversity 
        recruitment tactics/strategies.
  <bullet> ODNO is working with minority Greek letter organizations to 
        organize general information meetings for these academically 
        competitive and service-oriented undergraduate and alumni 
        members. Our goal is to recruit them for Volunteer service.
  <bullet> We have collaborated with the Hispanic Association of 
        Colleges and Universities (HACU), Hispanic Scholarship Fund 
        (HSF), and Hispanic College Fund (HCF) to increase our outreach 
        to the Latino/Hispanic community. Peace Corps has done 
        presentations at their national conferences and we are 
        organizing informational recruitment sessions for their 
        undergraduate populations.
  <bullet> Regarding Native American/American Indian outreach, our 
        Regional Recruitment Offices are currently evaluating strategic 
        PowWow events to attend. These events are generally 
        multigenerational and thus present an opportunity for Peace 
        Corps recruiters to engage the entire family.
  <bullet> We are piloting a program in Washington, DC, called ``Meet 
        the World'' which brings ethnically diverse RPCVs together with 
        prospective Peace Corps applicants. This program has been 
        running for the last 4 months, and the response from the 
        general population and RPCV groups has been tremendous.
  <bullet> We have begun a number of strategic partnerships with key 
        minority higher education organizations (i.e., UNCF, American 
        Indian Higher Education Consortium, Asian Pacific Islander 
        American Scholarship Fund, and HACU).
  <bullet> For the past 3 years, we have recruited highly experienced 
        individuals for Volunteer service at AARP's national 
        conference.
                                 ______
                                 

   Responses by Peace Corps Director Aaron S. Williams to Questions 
           Submitted for the Record by Senator Jeanne Shaheen

    Question #1. Field staff often spend a significant amount of time 
fielding demands from headquarters. Some complain that they have little 
time and authority to do the job they need to be doing at their posts. 
What is your own assessment of this concern, and what steps if any are 
you taking to address it?

    Answer. Staff at headquarters are responsible for ensuring that the 
Peace Corps' operations in 76 countries around the world consistently 
meet agency standards in all programmatic and operational areas. For 
example:

  <bullet> The Office of Safety and Security oversees all Peace Corps 
        security programs, both domestically and overseas. The office 
        has more than two dozen staff, including 10 Peace Corps Safety 
        and Security Officers who are based regionally around the world 
        and who provide technical expertise, guidance, and training to 
        Peace Corps posts.
  <bullet> The Office of Medical Services works to ensure that all 
        Volunteers receive high-quality medical care by, among other 
        things, selecting and managing overseas Peace Corps Medical 
        Officers.
  <bullet> The Office of Global Operations works to disseminate best 
        practices, provide an organized, cohesive voice to agency 
        leadership, and coordinate the activities of all overseas 
        operations.

    In addition, Peace Corps' Office of Inspector General (OIG) 
regularly audits posts overseas.
    The oversight and expertise provided by headquarters staff are not 
intended to take away from the ability of staff at posts to perform 
their important work. Rather, they are intended to ensure that all 
Volunteers are receiving the support they need, and that their work is 
safe, productive, and rewarding. Particularly when it comes to 
Volunteer safety and security and medical support, it is essential that 
agency policies are implemented uniformly across all our posts.
    The agency has taken an important step to enhance the authority of 
staff overseas by pursuing legislation that would permit Peace Corps 
personal services contractors to perform certain functions they are 
currently barred from performing, such as serving as cashiers, 
disbursing money, and contracting for goods and services. This 
legislative fix is included in the version of S. 1280, the Kate Puzey 
Peace Corps Volunteer Protection Act of 2011, that the Senate recently 
approved, and it will provide for greater efficiency and consistency in 
overseas operations.

    Question #2. How do you balance the need for oversight from 
Washington with the important task of allowing Peace Corps country 
directors the leeway and flexibility to respond appropriately to 
country- and region-specific issues?

    Answer. Country Directors play a vital role at Peace Corps, and the 
agency goes to great lengths to hire highly qualified, talented 
Americans to serve in this capacity. Country Directors are entrusted 
with significant responsibility, including overall responsibility for 
the day-to-day management and execution of safety and security programs 
at post. By performing oversight, staff at headquarters ensure that 
Country Directors are meeting their responsibilities and adhering to 
all agency policies and procedures.
    The performance of Country Directors is assessed annually, based on 
performance plans with standardized criteria. The agency uses a number 
of data points to assess Country Director performance, including the 
results of annual, anonymous Volunteer surveys, operations plan 
submissions, and compliance with OIG audit and evaluation findings. 
Regional Directors at headquarters hold regular calls with their 
Country Directors to review key performance areas.
    S. 1280 includes a requirement that the OIG conduct ``an assessment 
of the implementation of the performance plans'' for Country Directors. 
The agency looks forward to reviewing the results of this assessment.

    Question #3. Are you confident that the Peace Corps bureaucracy--as 
it is currently set up--is flexible and responsive enough to respond to 
needs around the world in a timely and appropriate manner?

    Answer. Improving the agency's management structure has been one of 
my priorities since I was sworn in as director in 2009, which is why I 
hired the agency's first Director of Innovation and created the Office 
of Global Operations. Working closely with offices throughout Peace 
Corps, the Office of Innovation is spearheading efforts to find new, 
more efficient and effective ways to organize and operate across the 
agency, as well as to address the recommendations that resulted from 
the Comprehensive Agency Assessment that Peace Corps submitted to 
Congress in June 2010. The Office of Global Operations was created to 
provide overarching strategic support and management to the agency's 
direct Volunteer operations.
    The agency's successful evacuation of approximately 100 Volunteers 
from Niger in a matter of days testifies to the ability of Peace Corps 
management to respond in a timely and appropriate manner to events 
around the globe. After two French citizens were kidnapped in the 
capital of Niger in January 2011, the agency determined, in 
consultation with the Department of State and the U.S. Embassy, that 
the risk to Volunteers in-country was too high. The agency took swift 
and effective action to safely evacuate all Volunteers in Niger to 
Morocco between January 13 and January 17.

                                  <all>

</pre></body></html>
